<html>
<title> - PROGRESS IN CONSOLIDATING TERRORIST WATCHLISTS--THE TERRORIST SCREENING CENTER (TSC)</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       PROGRESS IN CONSOLIDATING
                         TERRORIST WATCHLISTS--
                  THE TERRORIST SCREENING CENTER (TSC)

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                                AND THE

                      SUBCOMMITTEE ON INTELLIGENCE
                          AND COUNTERTERRORISM

                                 OF THE

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2004

                               __________

                             Serial No. 86

                      (Committee on the Judiciary)

                           Serial No. 108-43

                (Select Committee on Homeland Security)

                               __________

         Printed for the use of the Committee on the Judiciary 
             and the Select Committee on Homeland Security

    Available via the World Wide Web: http://www.house.gov/judiciary
                        and http://hsc.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-674                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

           Bobby Vassar, Minority Counsel<greek-l>F0486 deg.
                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman
JENNIFER DUNN, Washington            JIM TURNER, Texas
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Arkansas                  LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, Jr.,         EDWARD J. MARKEY, Massachusetts
    Wisconsin                        NORMAN D. DICKS, Washington
BILLY TAUZIN, Louisiana              BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER, New 
SHERWOOD BOEHLERT, Illinois              York
LAMAR SMITH, Texas                   PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON, D.C.
DAVE CAMP, Michigan                  ZOE LOFGREN, California
LINCOLN DIAZ-BALART, Florida         KAREN McCARTHY, Missouri
BOB GOODLATTE, Virginia              SHEILA JACKSON LEE, Texas
ERNEST J. ISTOOK, Jr., Oklahoma      BILL PASCRELL, Jr., New Jersey
PETER T. KING, New York              DONNA M. CHRISTENSEN, Virgin 
JOHN LINDER, Georgia                     Islands
JOHN B. SHADEGG, Arizona             BOB ETHERIDGE, North Carolina
MARK E. SOUDER, Indiana              JAMES R. LANGEVIN, Rhode Island
MAC THORNBERRY, Texas                KENDRICK B. MEEK, Florida
JIM GIBBONS, Nevada                  [VACANCY]
KAY GRANGER, Texas
PETE SESSIONS, Texas
JOHN E. SWEENEY, New York

                  John Gannon, Majority Staff Director
               David H. Schanzer, Minority Staff Director
                                 ------                                

           Subcommittee on Intelligence and Counterterrorism

                     JIM GIBBONS, Nevada, Chairman

JOHN SWEENEY, New York,              KAREN McCARTHY, Missouri, 
  Vice Chairman                      Ranking Member
JENNIFER DUNN, Washington            EDWARD J. MARKEY, Massachusetts
C.W. BILL YOUNG, Florida             NORMAN D. DICKS, Washington
HAROLD ROGERS, Kentucky              BARNEY FRANK, Massachusetts
CHRISTOPHER SHAYS, Connecticut       JANE HARMAN, California
LAMAR SMITH, Texas                   NITA M. LOWEY, New York
PORTER J. GOSS, Florida              ROBERT E. ANDREWS, New Jersey
PETER T. KING, New York              ELEANOR HOLMES NORTON, D.C.
JOHN LINDER, Georgia                 JAMES R. LANGEVIN, Rhode Island
JOHN B. SHADEGG, Arizona             KENDRICK B. MEEK, Florida
MAC THORNBERRY, Texas


                            C O N T E N T S

                              ----------                              

                             MARCH 25, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security, Committee on the Judiciary...     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................     2
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence and 
  Counterterrorism, Select Committee on Homeland Security........     4
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security, Committee on the 
  Judiciary......................................................     4
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     5

                               WITNESSES

Ms. Donna A. Bucella, Director, Terrorist Screening Center, 
  Federal Bureau of Investigation
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Charles Bartoldus, Director, National Targeting Center, 
  Customs and Border Protection, Department of Homeland Security
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Mr. James W. McMahon, Director, Office of Public Security, State 
  of New York
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Mr. Jerry Berman, President, Center for Democracy and Technology
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    63
Prepared Statement of the Honorable Christopher Cox, a 
  Representative in Congress From the State of California, and 
  Chairman, Select Committee on Homeland Security................    69
Questions and Responses for the Record from Donna Bucella........    70
Questions for Responses for the Record from Jim McMahon..........    77
Questions and Responses for the Record from Charles Bartoldus....    80

 
PROGRESS IN CONSOLIDATING TERRORIST WATCHLISTS--THE TERRORIST SCREENING 
                              CENTER (TSC)

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,

                                  and

 Subcommittee on Intelligence and Counterterrorism,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
[Chairman of the Subcommittee on Crime, Terrorism, and Homeland 
Security] presiding.
    Mr. Coble. Before we begin, about 25 people have stopped me 
and asked me if I was dying or if I am feeling okay, and in the 
hopeful event of some of you might be wondering if I am about 
to expire, I had a chemical facial peel this morning. I don't 
look too great and I don't feel too great, but hopefully I am 
not about to expire. So I wanted to set your minds at ease. 
Good to have you all with us, and my colleagues are on the way.
    Today the Judiciary Committee, Subcommittee on Crime, 
Terrorism, and Homeland Security and the Select Committee on 
Homeland Security, Subcommittee on Intelligence and 
Counterterrorism, will conduct a joint hearing on the 
consolidation of terrorist watchlists at the new Terrorist 
Screening Center.
    I want to welcome all the Members from both Committees and 
the witnesses. Unfortunately, already in this election season 
we have heard a great deal of political rhetoric that fails to 
show the true bipartisan efforts of Congress to protect our 
Nation. It is easy to be a Monday morning quarterback, but such 
talk does nothing to improve our homeland security nor to 
support our public safety officers and troops in harm's way. If 
there are problems, we need to try to resolve them quickly. If 
there are ways to improve our homeland security, we need to 
implement them efficiently and effectively.
    Today, it is my belief that our country is safer than it 
was prior to September 11, 2001. That is due not only to the 
work of the Congress and the Bush administration, but also the 
extraordinary efforts of Federal, State and local law 
enforcement officers and our military men and women.
    This hearing focuses on one of those efforts. On September 
16, 2003, President Bush established the Terrorism Screening 
Center, through Homeland Security Presidential Directive 6, to 
provide ready access to information regarding suspected 
terrorists, to allow Government investigators, screeners, 
agents, and State and local law enforcement officers to respond 
promptly.
    The Terrorism Screening Center aims to improve the 
screening of known and suspected terrorists at consular offices 
at international points of entry and the tracking of these 
individuals abroad and at home if they manage to enter the 
United States. The Terrorism Screening Center aims to improve 
information-sharing at all levels of Government and to securely 
and quickly get the right information to the right people.
    Today we will hear testimony from the director of the TSC 
on the progress the new Center has made in reaching its goals; 
from two customers of TSC, the National Targeting Center at the 
Department of Homeland Security, and the director of the New 
York State Counterterrorism Unit and the Center for Democracy 
and Technology on concerns about civil liberties.
    I look forward to hearing from our panel today. And at this 
juncture, I guess protocol-wise, I should call on the--I see 
the Chairman of the Subcommittee, Mr. Gibbons, is not here, but 
the Chairman of the full Committee, I believe, of Homeland 
Security, Mr. Turner from Texas--and I will recognize him for 5 
minutes.
    Mr. Turner. Thank you, Mr. Chairman. I am pleased today to 
join our colleagues from the Judiciary Committee to address the 
subject that we all know is enormously important to our 
homeland security, and that is determining our progress in 
developing an effective Terrorist Screening Center that 
integrates the multiple terrorist watchlists in a way that is 
meaningful in terms of protecting the security of the American 
people.
    I want to thank in advance the witnesses for being here 
today and I hope you excuse the questions, because I think all 
of you know we have had a great deal of concern on the Homeland 
Security Committee for some time regarding the delayed 
accomplishment of an effective, functional Terrorist Screening 
Center. I believe very strongly in the missions and the goals 
of the screening center, and I certainly value the hard work 
and the dedication of the personnel who work there, and I 
certainly want to contribute in any way that we can to the 
success of your objective.
    But because we are here 2\1/2\ years after September 11, we 
still know that we do not have a fully integrated terrorist 
watchlist database to identify and apprehend potential 
terrorists. Some may ask, what does that mean in practical 
terms; why would anyone care if this has not been accomplished?
    What it means is that someone could still slip through the 
cracks because the Government is not able in real-time to check 
a name against every available watchlist of known or suspected 
terrorists. This is true when the police pick up a suspect, 
when border inspectors are deciding to let someone in the 
country, and when consular offices are reviewing visa 
applications.
    For a function that is absolutely vital for our homeland 
security, the delay in completing the project is totally 
unacceptable. The damaging effects, I would submit, are 
incalculable, since we can't even begin to know what 
opportunities have been missed to arrest, question, or 
prosecute possible terrorists. And, of course, we know if we 
had this capability prior to September 11, two of the hijackers 
might not have been permitted to board airplanes on that 
fateful day. More backsliding and excuse-making ought to be met 
with the stiffest bipartisan criticism.
    Responsibility for this task shifted four times during the 
first 2 years after 9/11. And since the responsibility for the 
project has been given to the FBI, the deadline for completing 
it has been moved to December of 2003, to March, 2003, to mid-
summer of 2003, and now through December of 2004.
    There cannot be further delay. And according to the experts 
with whom we have consulted, there are no technological 
barriers to getting this job done. It is simply a matter of 
will, commitment, energy, and dedication to the task. 
Leadership by the Administration needs to be exercised at the 
highest levels to ensure that the latest deadline is met. And 
we need the entire Government to be on the same page.
    It is striking to me that the same week Secretary Ridge 
announced that this project was one of his top goals for 2004, 
a senior official in the Department of Homeland Security 
questioned whether watchlist consolidation was even necessary. 
I want the message to be clear: There is a bipartisan consensus 
in Congress that we need to forge ahead as rapidly as possible 
to implement a robust, agile, and comprehensive terrorist 
screening capability through consolidation of all existing 
Government watchlists.
    Through vigorous oversight we have tried to help the 
process along. Four months ago, the Democratic Members of our 
Committee prepared a concise list of 10 attributes that we 
believe ought to be the cornerstone of an effective Terrorist 
Screening Center database. As we elaborated in the report, we 
believe the Terrorist Screening Center must be, among other 
things, comprehensive, accurate, acceptable, timely, flexible 
and correctable. So, for example, even once watchlists have 
been integrated, the screening center cannot be considered 
fully operational until the information is accessible to 
everyone who needs it: Border Patrol, immigration inspectors, 
local police officers, and Federal law enforcement.
    Consistent with the letter I sent to the screening center 
earlier this week, I hope we can hear more from your testimony 
regarding the progress that has been made.
    One of the related issues that I hope you will comment on 
is whether all the right people even know about the Terrorist 
Screening Center. My staff was on the border earlier this month 
in Texas, and we were told that the Border Patrol is not aware 
of or linked to the Terrorist Screening Center. Likewise, we 
had a discussion yesterday with the State homeland security 
director who said that local law enforcement in his State was 
not aware of this important resource.
    In closing, while we know progress is being made, I think 
there is much more that must be done. And if that means putting 
people to work 24 hours a day in three shifts, as our soldiers 
are doing in Iraq today, then that is what we need to do to get 
this job done and get it done now to protect the American 
people.
    Thank you, Mr. Chairman.
    Mr. Coble. Thank the gentleman.
    The gentleman from Nevada Mr. Gibbons, who chairs the 
Subcommittee on Intelligence and Counterterrorism on the House 
Homeland Security Committee, is recognized for 5 minutes.
    Mr. Gibbons. Thank you, Mr. Chairman. And to our witnesses 
today, I want to welcome all of you and thank you for your 
appearance before us today. I think your testimony is going to 
go a long way into helping us to understand how the Terrorist 
Screening Center is working and what Congress can do to help 
make it a user-friendly system.
    Four months ago, before Congress passed the Homeland 
Security Act, and almost a full year before the Department of 
Homeland Security was up and running, the President's National 
Strategy for Homeland Security established a consolidated 
terrorism watchlist as one of the President's highest 
priorities. While there have been substantial technical and 
legal hurdles to overcome in the process of consolidating and 
integrating these lists, the names of suspected terrorists are 
now available to law enforcement and Federal officials, and 
have been since December of 2003.
    The Terrorist Screening Center Initiative has given our law 
enforcement officers the ability to identify terrorists who 
pose a direct threat to our Nation. While this information is 
now available, improvements are being worked on to help make 
the system faster and more user friendly so that the law 
enforcement officials patroling our streets and our border 
protection workers have immediate, seamless access to the 
information that they need.
    While it is essential that the Terrorist Screening Center 
is robust and fully deployed, we must make sure that the proper 
procedures are in place to ensure that the information is not 
misused. It is important to note all the information that the 
Terrorist Screening Center maintains has been collected in 
accordance with existing laws, and officials will continue to 
be bound by any applicable laws and constitutional 
requirements. But I hope, Director Bucella, that you will 
further address the civil liberties issue a bit today, 
especially as it relates to systems that have been put in place 
to ensure that this information is not misused.
    I look forward to your testimonies and to the hearing and 
how we can help ensure that the Terrorist Screening Center 
serves as a single, seamless resource in our fight against 
terrorism. Thanks again to each of you for appearing here 
today. And, Mr. Chairman, I yield back the balance of my time.
    Mr. Coble. I thank the gentleman from Nevada.
    I now recognize the Ranking Member for the Subcommittee on 
Crime, Terrorism, and Homeland Security, the distinguished 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, and I am pleased to 
join you and our colleagues on the Intelligence 
Counterterrorism Subcommittee. Now, no one would question the 
need for law enforcement at all levels to conduct terrorism 
screening in today's world. It is certainly appropriate to have 
information and processing of information by certain private 
entities such as airlines and nuclear power facilities 
integrated into their screening processes. All of us are 
willing to endure more inconvenience to accommodate reasonable 
security procedures designed to protect our persons and 
property as well as our Nation's rights and liberties; yet we 
ought to be secure from terrorism with our traditional rights, 
not in exchange for them. If we have to diminish or balance our 
rights and liberties for security, we have handed those who 
scoff at our society a substantial victory.
    Even before 9/11 tragedies galvanized the need to be much 
more diligent in preventing terrorism, we were still seeing 
problems with protections of basic rights and remedies. 
Accounts of general racial and ethnic profiling and from abuse 
of sensitive data against citizens and others by either inept 
or overzealous or ill-willed persons in their efforts to ferret 
out ordinary street crime, such as drug crimes, were well 
established through lawsuits and conscientious evaluations of 
law enforcement practices in many jurisdictions. So with the 
breadth of access to information, dissemination, and vision to 
all law enforcement officers as well as private entities, we 
know that unless privacy measures are made systemic, the 
prejudices and biases already there will only be enhanced by 
the gravity of permitting terrorism.
    I look forward to hearing from our witnesses with the hopes 
that we can protect persons and properties as well as protect 
our traditional rights and liberties. I yield back.
    Mr. Coble. I thank the gentleman.
    I note the presence of the Chairman of the full House 
Homeland Security Committee, Mr. Cox from California. Did you 
want to be heard, Mr. Chairman?
    Mr. Cox. I would just make a brief opening statement. I 
want to thank you for holding this hearing and also thank 
Chairman Gibbons. This is the second joint hearing of the 
Homeland Security Committee and the Judiciary Committee.
    And I welcome you in joining our witnesses. This is an 
excellent panel and I think it will focus us on the topic 
before us. It has been less than 5 months since the President's 
directive. The Terrorist Screening Center began carrying out 
the task of providing unified, accurate terrorist screening 
information to screeners around the country 24 hours a day, 7 
days a week, through a single node. The Terrorist Screening 
Center will serve State and local officials as well as private 
sector entities that manage critical infrastructure. It will 
even serve foreign governments that have entered into 
immigration agreements with the United States if they are 
partners in the global war on terrorism. But the Terrorist 
Screening Center support is particularly important to our 
Nation's first responders, our border protection officials, and 
the consular offices who adjudicate hundreds of visa 
applications everyday. Our overriding objective is, after all, 
to prevent terrorist attacks.
    There, the Terrorist Screening Center represents a quantum 
leap in the Nation's ability not only to keep terrorists out, 
but also to apprehend terrorists who manage to get in. It will 
give law enforcement officers a reliable way to determine 
whether a person stopped for a routine traffic violation is, 
based on all the information available to the U.S. Government, 
involved in some way in terrorist activity.
    It also represents another important milestone in tearing 
down barriers to information-sharing between the Intelligence 
Community and law enforcement officials. Integrating the data 
contained in the Government's legacy watchlist is a positive 
step. It was needed. Historically, 9 Federal agencies maintain 
12 disparate watch lists. The contents of these watchlists 
weren't accessible across agency lines and they weren't 
comprehensively analyzed. That means we had no efficient way of 
accessing the information we had, and, as a practical matter, 
what you can't access, you don't really know. That is one of 
the hard lessons of the 9/11 attacks.
    But integrating the information on all those lists is a 
complex task, even in the era of interoperable computer systems 
and instantly searchable data bases, and it must be done right. 
And to be the right solution, TSC must not come at the price of 
the civil rights or first amendment freedoms of American 
citizens, because we are fighting to preserve our way of life. 
That is a fundamental part of protecting our Nation, and I 
believe it has been worth the time it has taken to get TSC done 
right.
    The information collected and maintained in the 
Government's various watchlists was collected under different 
authorities for widely divergent purposes and it has been 
maintained in different formats. There was no agreed-upon set 
of discriminators to determine whether an individual should be 
watchlisted and the 12 legacy lists, taken together, had 
hundreds of thousands of names. They couldn't be dumped into 
some massive Government data base of potential bad guys. Each 
name had to be analyzed to make sure it belonged on TSC's 
integrated list.
    So at this hearing, we hope to get an update on the TSC's 
progress and relationship to the Department of Homeland 
Security. And equally important, we hope to be reassured that 
TSC and the databases that feed it will not impinge upon the 
civil rights and civil liberties to which we as Americans are 
entitled.
    Mr. Chairman, there are also serious questions we must ask: 
Is the Terrorist Screening Center the solution for the present, 
or is it the solution forever? Is it structured in the most 
effective way? Does it work? Is it fast? Is it reliable? Is it 
being used by those who need it the most? Can a user get 
additional information on a TSC name hit quickly and reliably? 
Is TSC's management and supervision appropriate? How can it be 
improved? Are civil liberties and privacy interests 
scrupulously safeguarded? Could a name get on TSC's list 
erroneously? If so, how would that be discovered and how 
corrected quickly?
    And certainly I look forward to hearing from each of our 
witnesses on these points. And I thank you, Mr. Chairman, and I 
yield back on these issues.
    Mr. Coble. I thank you, Mr. Cox.
    And I noticed Ms. McCarthy from Missouri has joined us, and 
good to have you with us, and the other Members of the 
Subcommittee as well.
    I say this to the panelists. We inevitably are going to be 
interrupted at least two or three times, so we will try to move 
along as quickly as we can. And if you would keep a sharp look-
out on that panel at your desk, and when that amber light 
appears, it is your warning that the 5 minutes is about to 
expire, and when the red light appears you are on thin ice. If 
you could wrap up at the 5-minute mark, we would be 
appreciative to you.
    We have read your written statements. We have four 
distinguished witnesses today. Our first witness is Donna A. 
Bucella, Director of the Terrorist Screening Center. Ms. 
Bucella is detailed to the Federal Bureau of Investigation as 
Director of the Terrorist Screening Center from the 
Transportation Security Administration. At TSA, Ms. Bucella is 
the Director of Aviation Operations. She has had a very 
distinguished career in public and private service. She 
received her bachelor of arts agree from the University of 
Virginia and her law degree from the University of Miami school 
of law. She began her legal career in 1984 in the U.S. Advocate 
Generals Corps and has been a reservist since 1987. She holds 
the rank of Lieutenant colonel. During her service in the U.S. 
Army, she served as defense counsel for the JAG Corps. In 1993, 
she became the Director of the Office of Legal Education for 
the Department of Justice. In 1999, Ms. Bucella was appointed 
by President Clinton and confirmed by the U.S. Senate as the 
U.S. Attorney for the Middle District of Florida.
    Our next witness is Mr. Charlie Bartoldus who became the 
Director of the National Targeting Center, Customs and Border 
Protection in September, 2002. Prior to his assignment as the 
NTC Director, he served as Director of the U.S. Customs Service 
port in Baltimore, Maryland. During his career in Customs, he 
has served as Director of Seizures and Penalties, Director of 
the Department of Treasury's Executive Office of Asset 
Forfeiture, Director of Account Management under the trade 
compliance redesign, the ACE program, and Deputy Director of 
Outbound Programs. He began his Customs career in 1979 as a 
customs inspector at JFK International Airport in New York.
    Our third witness is Director Jim McMahon of the Office of 
Public Security for the State of New York. Congressman Sweeney 
from New York has requested to introduce him, and I am pleased 
to yield to Representative Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman, and it is an honor to 
be able to introduce not just someone I served with, but he 
lives in my hometown and we grocery shop at the same place.
    I am pleased to introduce Jim McMahon who is currently the 
Director of the New York State Office of Public Security. Mr. 
McMahon has the distinguished record having served in the New 
York State Police for 37 years, including 8 as its top 
official, as the Superintendent. His accomplishments serve as a 
model demonstrating how Federal, State and local officials can 
work together productively on the urgent counterterrorism and 
homeland security mission. He will give us an important 
perspective demonstrating how law enforcement in both rural and 
urban areas interact with the new Terrorist Screening Center. 
While he is a Rochester, New York native, he currently resides 
in Clifton Park, New York. He is a U.S. Army veteran and has 
served Governors from both sides of the political aisle. 
Welcome, Director McMahon, and all of the witnesses.
    Mr. Coble. I thank you, Mr. Sweeney.
    Our final witness is Mr. Jerry Berman, who is the President 
of the Center for Democracy and Technology and a member of the 
Markle Foundation Task Force on National Security in the 
Information Age. From 1978 to 1988, Mr. Berman was Chief 
Legislative Counsel at the ACLU and Founder and Director of 
ACLU Projects on Privacy and Information Technology. In 
December, 1994, he founded CDT, a Washington, D.C.-based 
Internet public policy organization. In 1999, he served on the 
congressionally appointed Child Online Protection Commission 
Task Force to study technologies and other methods for 
protecting children from objectionable material on the Internet 
consistent with constitutional values. Mr. Berman received his 
B.A, M.A, and L.L.B. At the University of California, Berkeley. 
He was graduated with honors, was elected to Phi Beta Kappa, 
and served as editor of the California Law Review at the Bolt 
Law School.
    It is good to have each of you. As I have said before, we 
have your written statements and they have been examined and 
will be reexamined. And, folks, as you know, we are now in a 
situation where accusatory fingers are being pointed by 
everyone toward everyone. And when I last checked when you 
apply hindsight, it usually comes up 20-20. It is easy to play 
with hindsight. I think what we need to do is to try to benefit 
from mistakes--and mistakes have been made--but to benefit and 
hope that they don't repeat themselves subsequently.
    Good to have you all with us. And, Director Bucella, you 
are recognized for 5 minutes.

 STATEMENT OF DONNA A. BUCELLA, DIRECTOR, TERRORIST SCREENING 
            CENTER, FEDERAL BUREAU OF INVESTIGATION

    Ms. Bucella. Good afternoon, Chairman Coble, Chairman 
Gibbons, and Members of both Subcommittees. The Terrorist 
Screening Center was created to consolidate terrorist 
watchlists from multiple agencies and provide 24/7 operational 
support for all Federal, State and local law enforcement 
officers across the country and around the world.
    We began operation on December 1. For the first time, local 
law enforcement has a direct, real-time line of communication 
to the Federal Government concerning terrorism.
    Today I will tell you about our daily operations, including 
some of our successes, our future plans, and how we will 
safeguard civil liberties. I will provide as much information 
as I can in this open forum. However, I will be happy to 
provide additional classified details in a closed hearing at 
your request.
    First, I would like to introduce our partners in combating 
terrorism: Captain Richard McLaughlin from the Arlington Police 
Department, Massachusetts; Sergeant Victor Hall and Officer 
Brad Land from the Arlington Police Department in Texas.
    The Terrorist Screening Center includes participants from 
the Departments of Justice, Homeland Security, State and 
Treasury. During our first week of operations, we answered 56 
calls. And on at least two occasions during that week, we were 
able to link separate State and Federal investigations of two 
known or suspected terrorists. Since then, we have had a steady 
increase of calls, now averaging over 210 calls per week, and 
close to half of those calls are positive identifications of 
known or suspected terrorists that were encountered within, at, 
or outside of our borders.
    Let me take a moment to describe to you how we operate. A 
police officer checks the National Crime Information Center, 
NCIC database, during a routine traffic stop and may be 
directed to contact the TSC for assistance in the 
identification process. We run the name through our database to 
determine if the person is a positive match. If positive or 
inconclusive, we pass the information to the Federal Bureau of 
Investigation's Counterterrorism Watch, which then coordinates 
with the local joint terrorism task force or the case agent, 
who then directly responds to the police officer.
    For example, two individuals were arrested for speeding. We 
were contacted and assisted in identifying one of these 
individuals as a known or suspected terrorist. This encounter 
significantly impacted a long-term investigation confirming the 
immeasurable value of bringing local law enforcement into the 
war on terrorism.
    The State Department plays an essential role opposite the 
screening center. Since December 1, we have reviewed over 
54,000 security advisory opinions. Eighty of the visa 
applicants were determined to be associated with terrorism. 
Fifty-three visas have been revoked due to the actions at the 
Terrorist Screening Center.
    We have approached this enormous and complex challenge to 
consolidate terrorist watchlists by implementing a phased-in 
approach. Since December 1, we have had the ability to, one, 
make the names and identifying information of terrorists 
accessible to Federal, State, and local law enforcement; two, 
have a system for properly reviewing whether a known or 
suspected terrorist should be included in or deleted from 
additional screening processes; three, administer a process to 
ensure that persons who may share the same name with a known or 
suspected terrorist are not unduly inconvenienced; and four, 
implement a system to adjust or delete outdated or incorrect 
information to prevent problems arising from these 
identifications.
    We now have a single database which is updated daily and is 
unclassified, law enforcement-sensitive, containing identifying 
information of known or suspected terrorists. We are supplied 
with information regarding international terrorists from the 
Terrorist Threat Integration Center and domestic terrorist 
information from the FBI. Our database facilitates the 
consolidation of disparate information currently held by 
multiple agencies and used in different ways to be brought 
together for a single purpose, to help identify terrorists.
    We recognize that with all of these capabilities also comes 
the responsibility to ensure that we continue to protect civil 
liberties. We have absolutely no independent authority to 
conduct intelligence collection. In fact, we do not collect 
information at all. We only receive information collected by 
other entities with preexisting authority to do so, each with 
their own policies and procedures to protect privacy rights and 
civil liberties.
    The handling and use of information including U.S. persons' 
information is governed by the same statutory, regulatory, and 
constitutional requirements as if the information was not to be 
included in our database.
    We are committed to addressing the issues arising from the 
misidentification of persons under previous watchlists and 
practices. Procedures are in place to review and promptly 
adjust or delete erroneous or outdated information. And such 
records have already been identified and removed.
    The creation of our Center marks a significant step forward 
in protecting America by detecting, disrupting, or preempting 
terrorist threats. We are already contributing to nationwide 
efforts to keep terrorists out of the United States and locate 
those who may already be in our country.
    I have given you but a few of our successes. We have 
screened to date over 2,000 calls and the numbers continue to 
rise. State and local law enforcement officers now know if they 
have encountered a known or suspected terrorist during a 
routine traffic stop. Numerous State and local law enforcement 
officers are providing invaluable assistance and are integral 
in the efforts combating terrorists.
    As previously stated, the opening of our Center on December 
1 is the beginning, not the end. I appreciate your interest in 
our activities and I will be happy to answer any questions.
    Mr. Coble. Director Bucella, we thank you for that.
    [The prepared statement of Ms. Bucella follows:]

                 Prepared Statement of Donna A. Bucella

    Good afternoon Chairman Coble, Chairman Gibbons, Ranking Members 
and Members of both Subcommittees. Thank you for the opportunity to 
discuss the missions and objectives of the new Terrorist Screening 
Center (TSC). Homeland Security Presidential Directive 6 (HSPD-6), 
issued on September 16, 2003, ordered the creation of the TSC, 
directing its operations to begin on December 1, 2003, and we met that 
goal. The TSC was created to ensure that government investigators, 
screeners, federal agents, and state and local law enforcement officers 
have ready access to the information and expertise they need to respond 
quickly when a known or suspected terrorist is encountered here in the 
United States, at our borders and at our embassies. Today, I will tell 
you about our daily operations, including some of our successes, our 
future plans, and how we will safeguard civil liberties. I will provide 
as much information as I can in this open forum, however, I will be 
happy to provide additional, classified details in a closed hearing at 
your request.

                             TSC OPERATIONS

    The TSC is a multi-agency Center, including participants from the 
FBI, Department of State, Customs and Border Protection, Immigration 
and Customs Enforcement, Secret Service, Coast Guard, Transportation 
Security Administration, and the Office of Foreign Assets Control. 
Other agencies, including the Postal Service and Drug Enforcement 
Administration, have agreed to participate. Our goal is to consolidate 
the Government's approach to terrorism screening and provide for the 
appropriate and lawful use of Terrorist Information in screening 
processes. We will be a diverse Center, manned by experts to include 
intelligence analysts and law enforcement from a wide variety of 
agencies, and to communicate and coordinate efforts across the full 
spectrum of federal, state and local government agencies. Currently, 
the TSC is staffed by approximately 84 employees, including permanent 
personnel, temporary duty assignees, and contractors to staff our 24/7 
operation.
    Since December 1, 2003, TSC has been providing key resources for 
screeners and law enforcement personnel. These include:

        (1)  a single coordination point for terrorist screening data;

        (2)  a consolidated 24/7 call center for encounter 
        identification assistance;

        (3)  access to a coordinated law enforcement response to 
        federal, state and local law enforcement;

        (4)  a formal process for tracking encounters and ensuring 
        feedback is supplied to the appropriate entities, and

        (5)  a process to address the misidentification issues.

    The TSC's initial capabilities were limited because of the need to 
integrate records in a way that ensured that the data about known and 
suspected terrorists was as accurate as possible. Each agency 
contributing data to the TSC is using its own database. These 
databases, which were created to support the mission of the individual 
agencies, are in many instances their case management systems, not 
terrorist watch lists.
    Despite our limited capabilities in the first week of operation, 
the TSC answered 56 calls, including one in which a local police 
department was seeking information regarding an ongoing investigation. 
A suspected terrorist had traveled over 1,000 miles from his home, and 
the department's call alerted the FBI to his activities. The police 
department coordinated their surveillance with the FBI investigation, 
resulting in solid intelligence for both local and federal law 
enforcement.
    Another call came from a West Coast police department that was 
investigating an individual for a state felony charge. The TSC 
determined the individual was a terrorism suspect in a federal 
investigation, and our operational component at the FBI's 
Counterterrorism Division put the respective investigators together. 
The FBI and the local investigator are now sharing case information, 
resulting in a coordinated approach. Again, we are linking 
investigations and coordinating the U.S. Government approach to 
screening for suspected terrorists.
    There are three fundamental types of inquiries: interior (within 
the U.S.), border (at the border/ports points of entry) and exterior 
(outside the border). Interior inquiries will normally be made by state 
and local law enforcement. Border inquiries are made by Customs and 
Border Protection (CBP). Exterior inquiries are conducted by the State 
Department.
    The process for making an internal inquiry is relatively simple. A 
police officer checks the National Crime Information Center (NCIC) 
database on a routine traffic stop, and he/she is requested to call the 
TSC because the person stopped has similar identifying information to a 
known or suspected terrorist listed in the NCIC. When the officer calls 
TSC, through the police department's dispatch, the call center verifies 
the caller's identity, takes the information on the encounter and the 
circumstances of the encounter, and checks his name through the TSC's 
database. The TSC database includes the name, date of birth and other 
identifying information for a known or suspected terrorist. The call 
center quickly researches the underlying information, including 
classified, sensitive information. We make a determination as to 
whether the encounter is the same person as the one in our database. 
After notifying the officer of a positive, negative or inconclusive 
result, we help coordinate operational support as to how the person 
should be handled. For example, the officer may be advised--in 
appropriate and lawfully authorized circumstances--to arrest, detain or 
question the individual. Simultaneously, we contact our operational 
component at the FBI's Counterterrorism Division known as CT Watch. CT 
Watch provides for the local Joint Terrorism Task Force (JTTF) to 
respond. In some cases, officers provide valuable intelligence from a 
simple car stop, and in other cases, JTTF agents will respond to 
assist. Two cases serve to demonstrate the process:
    In one case, local police arrested a suspected terrorist associate 
on a state criminal violation. After TSC assisted in the positive 
identities match, the CT Watch, contacted the FBI case agent, who 
immediately went to the local detention facility to talk with the 
individual. During that interview, the individual agreed to cooperate 
with the FBI. Another case illustrates the intersection between local 
law enforcement, homeland security and counterterrorism investigations. 
Local police arrested an individual and while conducting the ``search 
incident to arrest,'' discovered significant evidence of terrorist 
activities. The TSC confirmed the individual's identity and our 
operational component, the CT Watch, notified the case agent. 
Intelligence gained from the local arrest has significantly affected a 
long term counterterrorism case, confirming the value of bringing local 
law enforcement into the war on terrorism.
    In addition to serving local law enforcement, the TSC receives a 
high volume of calls from Customs and Border Protection (CBP) 
inspectors who are stationed on the Nation's borders. A typical CBP 
call involves incoming passengers on international flights. A CBP 
inspector will query a list of names and may receive several possible 
suspected terrorist hits from IBIS and NCIC. The CBP inspector will go 
through their National Targeting Center (NTC), where the record will be 
analyzed, then passed to TSC. Our process is the same as it would be 
for a law enforcement call, that is, to examine the underlying record 
which often contains all source sensitive and highly classified 
information on a 24/7 basis, and determine whether the individual is 
identical to the person in the Terrorist Screening Center Database. The 
TSC then appropriately passes any derogatory information on the 
subject, and CBP makes a determination on whether the individual will 
be allowed into the United States.
    Our consular officers are our first line of defense in keeping 
known and suspected terrorists out of our Homeland by denying visas to 
these individuals. In this regard, State Department assignees at the 
TSC are continuing the work previously done by the TIPOFF Office. Since 
December 1, 2003, when the TSC came into operation, State Department 
assignees and their staff at the TSC have reviewed over 54,000 security 
advisory opinions, which are cables from U.S. Embassies and Consulates 
around the globe, to determine if the visa applicants described in 
these cables were ``true hits'' with records contained in the database. 
Eighty of those ``hits'' resulted in true matches. As an example in 
December, a member of a terrorist organization applied for a visa at a 
U.S. consulate overseas. Consular officials denied the visa based on 
the TSC's review of the information and confirmation that the 
individual was a ``true hit,'' i.e. matched the record at the TSC. The 
same process applied to a senior member of a proscribed terrorist 
organization based overseas. His visa was also denied.
    In addition, 53 visas have been revoked, as a result of the State 
Department's careful comparison of new records entered into the 
terrorist database with visas that had been previously issued.
    Finally, since December 1, 2003, agreements between the State 
Department and several allies are now implemented at the TSC, resulting 
in over 125 possible ``true hits'' of known and suspected terrorists at 
the borders of those nations. During January, an individual known to 
the U.S. government as an affiliate of a terrorist organization 
attempted to board a flight to enter one of these nations. The 
individual's identity was one of several thousand consolidated from 
various U.S. agencies and passed to this nation. According to protocols 
contained in our agreement, State Department assignees at the TSC 
worked with their counterparts in our allied nation, and the individual 
was removed from the flight despite holding valid travel documents.
    According to a 16 September 2003 Memorandum of Understanding 
between Secretary Powell, Secretary Ridge, Attorney General Ashcroft, 
and DCI Tenet, the Terrorist Threat Integration Center's (TTIC) 
identities database will serve as the single source for the TSC's 
terrorist database, excluding purely domestic terrorism. Currently 
TTIC, which assembles and analyzes information from a wide range of 
sources to identify potential terrorists, provides the TSC with the 
vast majority of its information about known or suspected international 
terrorists.
    The FBI provides the TSC with information about purely domestic 
terrorism--that is, information that has been determined to have no 
link to foreign intelligence, counterintelligence, or international 
terrorism. The TSC consolidates this identifying information and makes 
it accessible for queries from federal, state, and local agencies for 
screening purposes.
    When a nomination is received at the TSC from TTIC or the FBI, it 
is reviewed by assignees to the TSC from participating agencies, who, 
in consultation with their assigning member agencies, determine how an 
encounter with this individual will be handled. The system is tailored 
to provide different feedback depending on where the encounter takes 
place. For example, an FBI representative who reviews a record may 
determine that an individual is subject to a criminal warrant and needs 
to be arrested by state and local law enforcement, while the 
Transportation Security Administration (TSA) representative may decide 
that the individual is not appropriate to board an aircraft. This 
tailoring ensures that specific guidance is provided to federal, state, 
and local agencies based on their legal authority.

                            TSC CAPABILITIES

    The TSC has approached the challenge to consolidate terrorists 
watch lists by implementing a ``phased in'' approach.
    We implemented phase one from September 16, 2003 to December 1, 
2003, on the day the TSC achieved initial operating capability. During 
Phase One, the TSC had the ability to: (1) make the names and 
identifying information of terrorists, known to or suspected by the 
U.S. Government, accessible to federal, state and local law 
enforcement; (2) have a system for properly reviewing whether a known 
or suspected terrorist should be included in or deleted from additional 
screening processes; (3) administer a process to ensure that persons, 
who may share a name with a known or suspected terrorist, are not 
unduly inconvenienced in U.S. Government screening processes; and, (4) 
implement a system to adjust or delete outdated or incorrect 
information to prevent problems arising from misidentifications.
    Phase two occurred from December 1, 2003 to March 1, 2004 in the 
development of the Terrorist Screening Database (TSDB). The TSDB is an 
unclassified law enforcement sensitive database, containing identifying 
information of known or suspected terrorists. The TSDB allows the 
consolidation of disparate information, currently held by multiple 
agencies and used in different ways, to be brought together for a 
single purpose--to help identify and detain potential terrorists to 
prevent future terrorist attacks.
    We are currently in phase three which concludes before the end of 
this year. The TSC will create a more dynamic database and use a 
single, integrated system for ensuring known or suspected terrorists' 
identities are promptly incorporated into all appropriate screening 
processes. The terrorist screening database will eventually allow 
private sector entities, such as operators of critical infrastructure 
facilities or organizers of large events, to submit a list of persons 
associated with those events to the U.S. Government to be screened for 
any nexus to terrorism. In addition, the TSC will begin to implement 
mechanisms for sharing terrorist screening information with additional 
cooperating countries and to obtain such information from these 
countries. The Department of State is currently working on this issue.
    Because our mission cuts across traditional boundaries between law 
enforcement, national security, and homeland defense, we have begun an 
aggressive outreach program. Our outreach must include members of the 
intelligence community, federal law enforcement, non-law enforcement/
non-intelligence related government agencies, critical infrastructures, 
and most importantly, officers from the Nation's 18,000 law enforcement 
agencies. We not only train our law enforcement and government agency 
partners; viewing outreach as a two-way process, we also seek feedback 
and innovative ideas from them.

                      SAFEGUARDING CIVIL LIBERTIES

    We recognize that with all of these capabilities also comes the 
responsibility to ensure that we continue to protect our civil 
liberties.
    The TSC has absolutely no authority to conduct intelligence 
collection or other operations. In fact, the TSC does not collect 
information at all--it only receives information collected by other 
entities with preexisting authority to do so, each with their own 
policies and procedures to protect privacy rights and civil liberties. 
The handling and use of information, including U.S. person information, 
is governed by the same statutory, regulatory, and constitutional 
requirements as if the information was not to be included in a TSC-
managed database.
    The TSC's primary mission is to ensure that the identities data 
that is already known to the U.S. Government is held in one location 
where it can be queried by those who need it, including federal 
security screeners and state and local law enforcement officers. The 
structures which are in place also ensure that information about U.S. 
persons that has been determined to be purely domestic terrorism 
information with no link to foreign intelligence, counterintelligence, 
or international terrorism does not go through the Terrorist Threat 
Integration Center, but instead is placed directly into the TSC by the 
FBI. The Attorney General has also been directed to implement 
procedures and safeguards with respect to information about U.S. 
persons, in coordination with the Secretary of State, the Secretary of 
Homeland Security, and the Director of Central Intelligence.
    We are also committed to addressing the issues and inconveniences 
arising from the misidentification of persons under previous watch-
listing practices. Procedures are in place to review and promptly 
adjust or delete erroneous or outdated domestic terrorism information. 
The TSC works closely with TTIC regarding any international terrorism 
information errors, as only TTIC can make changes to the records it 
provides to the TSC. In addition, we are currently in the process of 
creating a dedicated staff specifically to address the 
misidentification process for the TSC.

                               CONCLUSION

    The creation of the Terrorist Screening Center marks a significant 
step forward in protecting America's communities and families by 
detecting, disrupting, or preempting terrorist threats. The TSC is 
already contributing to nationwide efforts to keep terrorists out of 
the U.S. and locate those who may already be in the country. For this 
unclassified hearing, I have given you only a few of our successes. We 
have screened over 2,000 calls since our inception, and the numbers 
continue to rise. State and local law enforcement officers are now 
assisting in the identification of known or suspected terrorists here 
in the U.S., have provided invaluable intelligence for pending 
investigation, and are now integral in the efforts of combating 
terrorism in the U.S. I appreciate the Joint Subcommittee's interest in 
the TSC's activities and I will be happy to answer any questions you 
may have.

    Mr. Coble. And in a sense of fairness, Director Bucella 
used 6 minutes, so I will allot--if you need 6 minutes, 
Director Bartoldus

 STATEMENT OF CHARLES BARTOLDUS, DIRECTOR, NATIONAL TARGETING 
 CENTER, CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Bartoldus. Good afternoon, Chairman Gibbons, Chairman 
Coble, and Members of both Subcommittees. Thank you for this 
opportunity to testify today on the subject of U.S. Customs and 
Border Protection, CBPs interaction with the Terrorist 
Screening Center, or TSC.
    I would like to begin with a very short update on the 
efforts that Homeland Security has taken during the merger 
itself to achieve one face of the border. CBP is responsible 
for effectively deploying 42,000 employees in preserving the 
traditional missions of our predecessor agencies. The actions 
undertaken over the past year have set the stage for the 
planned conversion of approximately 18,000 legacy Agriculture, 
Customs, and Immigration inspectors to Customs and Border 
Protection offices. People, technology, automation, electronic 
information, and partnerships are concepts that serve as the 
foundation of CBP's antiterrorism initiatives. These concepts 
improve the security of our borders by reinforcing the 
components of our layered strategy of defense.
    Today I would like to focus solely on how these elements of 
our layered defense work with regard to CBP's interaction with 
the TSC. As the Director of the National Targeting Center, 
which came into existence in October of 2001 in direct response 
to the events of 9/11, my staff and I have worked extensively 
with the Terrorist Screening Center since its formation in 
December of 2003. I have witnessed firsthand the improvements 
in the process and the information-sharing and coordination.
    CBP officers at the National Targeting Center routinely 
work with the TSC to evaluate and assess potential matches of 
individuals that may be attempting to enter the United States 
with harmful intent.
    The TSC enhances CBP's effectiveness in several ways. The 
primary benefit to CBP has been TSC's ability to provide 
substantive information pertaining to subjects. This 
information is critical to the positive identification of 
individuals and, consequently, the timely release of 
individuals deemed to be negative matches. The TSC provides for 
one consolidated point of contact, rather than having multiple 
contacts for different agencies and different departments, as 
was the case prior to the TSC's formation.
    Prior to the creation of the TSC, hours could be lost 
waiting for responses on inquiries. However, now in addition to 
the ease of access, the average turnaround time we experience 
with the TSC is 20 to 30 minutes or less. The reality of a 
single sensitive but unclassified database has greatly enhanced 
our ability to identify suspect individuals while facilitating 
legitimate travelers. CBP benefits from the clear channels and 
direction provided by the TSC as well as increased 
coordination, consistent training, and clear guidance that 
results from a single response and database. This has enhanced 
our law enforcement efforts.
    A critical component of CBP's mission is the 100 percent 
screening of passengers and cargo entering the United States. 
The TSC single database allows CBP officers in the field and at 
the National Targeting Center to identify high-risk travelers 
and transactions. The interaction between the TSC and CBP 
provides for a cumulative view of law enforcement and 
intelligence database information rather than a single-scope 
vision.
    Continued cooperation between the TSC and CBP further 
serves to bridge the gap between the international and domestic 
venues in which terrorists operate. CBP has a strong history of 
cooperation and partnership with law enforcement agencies at 
the Federal, State and local levels. CBP's layered defense is 
the cornerstone of our antiterrorism mission, and as a key 
component of that layered defense, we depend on the TSC in 
order to operate at our full potential.
    Essentially as the merger under the Department of Homeland 
Security matures, we find the layers of defense are 
increasingly transcending agency boundaries, and CBP's 
interaction with the TSC is just one example of these 
successes.
    Thank you again, Chairman Coble, Chairman Gibbons, and the 
Members of the Subcommittee for this opportunity to testify. I 
will be happy to answer questions.
    Mr. Coble. Director Bartoldus, we thank you as well.
    [The prepared statement of Mr. Bartoldus follows:]

                Prepared Statement of Charles Bartoldus

    Good afternoon Chairman Gibbons, Chairman Coble, and Members of the 
Subcommittee on Intelligence and Counterterrorism and the Subcommittee 
on Crime, Terrorism, and Homeland Security.
    Thank you for this opportunity to testify on the subject of U.S. 
Customs and Border Protection--CBP's--interaction with the Terrorist 
Screening Center (TSC).
    I would like to begin with an update on the Department of Homeland 
Security merger itself, and the efforts to achieve ``One Face at the 
Border.'' CBP is responsible for effectively deploying approximately 
42,000 employees and preserving the traditional missions of our 
predecessor agencies. Over the past year CBP has:

        <bullet>  Established a unified chain-of-command structure for 
        the Office of Field Operations and the Border Patrol.

        <bullet>  Developed a new comprehensive Border Patrol strategy 
        that incorporates the CBP priority mission.

        <bullet>  Created a new CBP uniform, patch, and badge with the 
        phased roll out expected to reach completion July 2004.

        <bullet>  Refocused and broadened the skills of legacy 
        employees by delivering Unified Primary training.

        <bullet>  Introduced new CBP Officer and CBP Agriculture 
        Specialist positions.

        <bullet>  Developed and delivered more than 50 new training 
        courses in support of our homeland security mission.

    These actions have set the stage for the planned conversion of 
approximately 18,000 legacy Agriculture, Customs, and Immigration 
Inspectors to Customs and Border Protection Officers.
    People, technology, automation, electronic information, and 
partnerships are concepts that serve as the foundation for CBP's anti-
terrorism initiatives. These concepts improve the security of our 
borders by reinforcing the components of our layered defense.

        CUSTOMS AND BORDER PROTECTION NATIONAL TARGETING CENTER

    The Customs and Border Protection National Targeting Center or NTC 
came into existence in October 2001 in the immediate aftermath of the 
events of September 11th. From its beginnings as the Office of Border 
Security, the NTC has grown swiftly, providing nationally directed 
targeting technology, targeting methodology, subject matter expertise, 
and training that encompasses the enforcement and regulatory missions 
of CBPs predecessor agencies.
    In January of 2003 the NTC staff moved to a state of the art 
facility in Northern Virginia, and CBP personnel assigned there 
represent subject matter areas in agriculture, customs and immigration. 
Other CBP offices providing staff to this effort include the Border 
Patrol, Office of Intelligence, and Office of Information and 
Technology.
    Additionally, the NTC supports the enforcement and regulatory 
missions of various agencies through a network of liaisons, which 
includes the Transportation Security Administration, the U.S. Coast 
Guard, the Department of Energy, and U.S. Immigration and Customs 
Enforcement. Contact is maintained with members of the intelligence 
community to include the Federal Bureau of Investigation, the Central 
Intelligence Agency and other intelligence services. CBP's commitment 
to collaborative targeting efforts is also demonstrated by the Food and 
Drug Administration Prior Notice Center located at the NTC and 
operational since December 11, 2003. There, CBP and FDA personnel 
conduct joint targeting on a round the clock basis in support of the 
Bio-Terrorism Act.

                       AUTOMATED TARGETING SYSTEM

    The Automated Targeting System is an automated tool that permits 
CBP to process advance information and focuses its inspection efforts 
on potentially high-risk transactions and travelers. The ATS is a 
flexible, evolving system that integrates information from government, 
commercial, and enforcement databases. In the cargo environment, ATS 
analyzes electronic cargo information related to individual shipments 
to profile and rank them in order of risk based on the application of 
rules. ATS outputs are then reviewed for potential further action by 
CBP such as document review and inspection.
    I would like to note at this point that through a combination of 
national targeting efforts at the NTC, local targeting performed by 
Manifest Review Units, and International targeting performed at CSI 
locations, we review and evaluate data regarding all ocean shipments 
bound for the United States, prior to arrival. And, we screen 100% of 
those identified as high or potential risk.
    To reach this level of screening, CBP has worked aggressively over 
the past year to increase the quality, quantity, and timeliness of the 
cargo information we receive electronically. As a result, the industry 
data that feeds ATS is substantial.
    The 24-Hour Manifest Rule for shipped goods requires detailed and 
accurate information for all shipments destined for the U.S., 24 hours 
prior to lading overseas. This is key to CBP's targeting successes in 
the sea environment. CBP implemented the 24-Hour Rule Manifest 
Compliance Program on February 2, 2003. CBP has seen great improvement 
in data quality through a phased-in strategy of informed compliance 
monitored and enforced by the NTC.
    This is further reinforced by the Trade Act Final Rule published on 
December 5, 2003, less than one year after the process began with 
public meetings. It mandates advance electronic cargo information, 
inbound and outbound, for all modes for transportation.
    Today, I would like to focus on how these elements of our layered 
defense work with regard to CBP's interaction with the TSC.
    CBP Officers at the NTC routinely work with the TSC in order to 
evaluate and assess potential matches of individuals on the TSC watch 
list that may be attempting to enter the United States with harmful 
intent. The TSC enhances CBP's effectiveness in the following ways:

        <bullet>  The TSC provides for one consolidated watch list 
        rather than the multiple lists that were maintained by 
        different departments and agencies prior to TSC's existence.

        <bullet>  TSC provides around the clock, real time access to 
        substantive information pertaining to subjects on the watch 
        list. This information is critical to the positive 
        identification of watch listed individuals and consequently, 
        the timely release of individuals deemed to be negative 
        matches.

    CBP also contributes to the TSC consolidated watch list via an 
information sharing arrangement with the Transportation Security 
Administration in which CBP provides Advance Passenger Information 
System data for TSA's performance of a risk assessment on crewmembers 
on international flights. Any hit or other derogatory information is 
then coordinated with TSA and the appropriate agency which may result 
in the addition of names to the TSC watchlist.
    The interaction between the TSC and CBP provides for a cumulative 
view of law enforcement and intelligence database information, rather 
than a single scope vision. Continued cooperation between TSC and CBP 
further serves to bridge the gap between the international and domestic 
venues in which terrorists operate.

                               CONCLUSION

    CBP has a strong history of cooperation and partnerships with law 
enforcement agencies at the Federal, state, and local levels. CBP's 
layered defense is the cornerstone of our anti-terrorism mission, and 
as a key component of that layered defense, we depend on the TSC in 
order to operate at our full potential. Essentially, as the merger 
under the Department of Homeland Security matures, we find that the 
``layers'' of defense are increasingly transcending agency boundaries, 
and CBP's interaction with the TSC is just one example.
    Thank you again, Chairman Gibbons, Chairman Coble, and the members 
of the Subcommittee for this opportunity to testify. I would be happy 
to answer any questions you may have.

    Mr. Coble. Director McMahon.

           STATEMENT OF JAMES W. McMAHON, DIRECTOR, 
          OFFICE OF PUBLIC SECURITY, STATE OF NEW YORK

    Mr. McMahon. Thank you, Chairman Coble and Chairman 
Gibbons, and distinguished Members of both Subcommittees. It is 
an honor for me to be able to testify here today about the 
Terrorist Screening Center from a perspective of a State and 
local law enforcement customer.
    Throughout my career in public service, I have been 
fortunate enough to have worked cooperatively with all the 
Federal law enforcement agencies as well as the majority of the 
540 law enforcement agencies in New York State. These close 
cooperative relationships, many times informal, have been 
instrumental in reducing the incidence of violent crime in New 
York State to levels not seen since the 1960's.
    The backbone formal information-sharing system for State 
and local law enforcement during this time was the National 
Crime Information Center, or NCIC. NCIC is a system that 
reaches law enforcement throughout the United States and has 
the capability of providing information through a patrol car 
radio or an in-car computer to nearly every officer across the 
Nation out on patrol. The information contained in the system 
is what we refer to as ``hot files,'' wanted persons, missing 
persons, stolen cars, stolen guns, or stolen property.
    In New York, since the deadly attack of 9/11, our first and 
foremost responsibility is to do everything humanly possible to 
prevent another terrorist attack by utilizing our 75,000 local 
law enforcement officers to the fullest extent possible. To 
facilitate this effort, we have built an intelligence center 
near Albany, New York. Our ultimate objective is to be able to 
provide timely, relevant, and actionable terrorism intelligence 
to patrol officers and detectives which could prevent a 
terrorist act or enhance a terrorist investigation by a Federal 
agency.
    NCIC is still the only national system able to reach the 
State and local patrol car. There are three scenarios that a 
State and local law enforcement officer can be faced with 
during an encounter with a person during a traffic stop or an 
ongoing investigation. The first is what we call the red light 
stop. In these cases, the patrol officer accesses NCIC with a 
name and date of birth inquiry and receives back information 
sufficient to arrest the subject if he or she is a person 
wanted by a State or local jurisdiction or by the Federal 
Government.
    The second situation involves a green light stop. This 
indicates, based upon the NCIC name and date of birth inquiry, 
that the person stopped is not actively wanted by any law 
enforcement agency.
    The third situation is the most complicated and the most 
critical to an ongoing terrorist investigation. This is what we 
refer to as a yellow light stop or investigative inquiry. In 
this situation, a police officer has someone detained or 
stopped. The person is not actively wanted, but the officer has 
suspicions about whether the individual is connected to a 
terrorist-related investigation or has suspected links to 
terrorism. It is this yellow light area where the Nation's 
700,000 State and local law enforcement officers can be most 
beneficial in assisting our Federal investigative partners.
    Kindly allow me to provide a hypothetical yellow light 
situation. A patrol officer responds to a call of a suspicious 
person filming the perimeter of a nuclear power plant. The 
individual is not from the area and has no apparent association 
with the immediate area. The officer is suspicious and 
therefore conducts an inquiry into the NCIC database.
    Prior to December 1, 2003, the inception date of the 
Terrorist Screening Center, there was no way to conduct a 
search of the various Federal databases to ascertain if the 
suspicious person had any ties to an ongoing investigation. The 
inception of the Terrorist Screening Center has provided State 
and local law enforcement, its customer, with an important tool 
to instruct the law enforcement officer in a noncustodial 
situation like the example I provided above as to what if 
anything he or she should do.
    Returning to the nuclear power plant hypothetical, I will 
detail what now occurs. The patrol officer queries the name and 
date of birth of the suspicious person through the NCIC system. 
If the individual is a person of interest, the patrol officer 
receives a Violent Gang and Terrorist Organizational File, 
VGTOF, hit that directs the officer to call a toll-free number 
for additional direction from the Terrorist Screening Center.
    Once the Terrorist Screening Center is contacted and 
confirms the individual, additional information is provided 
which places that hit into any one of four classifications: 
arrest, detain, investigate or query. This interaction also 
expands to include the FBI's Counterterrorism Watch that has 
the ability to provide additional direction and information on 
what action to take next, in addition to providing further 
identifying data. The resulting conversation provides the law 
enforcement officer with the specific guidance necessary as to 
the type of action to take. This guidance could include 
observations to be made, the location and time of the 
observation, questions to be asked, or possibly that no further 
action is required.
    This interaction and the ensuing information that is 
obtained are not only important for investigative purposes, but 
also for the safety of the officer. In New York State, there 
have been 41 confirmatory incidents wherein a VGTOF hit was 
received through the NCIC system and involved the Terrorist 
Screening Center, the most recent which occurred within the New 
York State Police when a uniformed trooper made a vehicle and 
traffic stop that resulted in a traffic ticket being issued. 
The trooper then conducted an inquiry through the NCIC computer 
to ascertain if the subject was wanted. This inquiry resulted 
in a VGTOF hit which put the investigating trooper in touch 
with the Terrorist Screening Center, who in turn advised the 
trooper that the individual queried was the subject of an 
investigative hit. The trooper was conferenced with the 
Counterterrorism Watch, which was able to provide additional 
information to the trooper as to what action to take next. This 
in turn resulted in the notification of the local Special Agent 
of the FBI's Joint Terrorism Task Force, and I am confident 
that that interaction provided valuable information to the FBI 
on a subject currently under investigation.
    And, Mr. Chairman, I see I am the subject of a red light 
stop. I did provide further written testimony, as you said 
earlier, and I will be glad to answer questions.
    Mr. Coble. Thank you.
    [The prepared statement of Mr. McMahon follows:]

                 Prepared Statement of James W. McMahon

    Chairman Coble, Chairman Gibbons, Congressman Scott, Congresswoman 
McCarthy, and the other distinguished members of the Subcommittee on 
Crime, Terrorism, and Homeland Security of the Judiciary and members of 
the Subcommittee on Intelligence and Counterterrorism of the Select 
Committee on Homeland Security, good afternoon and thank you for this 
opportunity to testify on such an important matter.
    My name is Jim McMahon. I am the Director of Public Security for 
the State of New York. In this pos ition I oversee the efforts of all 
of New York's State Agencies with regard to their capabilities to 
respond to, deter, detect and prevent acts of terrorism from occurring 
within the state. I was appointed to this post by Governor Pataki last 
year after serving 37 years in the New York State Police, the last 9 of 
which I served as Superintendent. I have been asked to testify today 
about the Terrorist Screening Center, or TSC, from the perspective of a 
state and local law enforcement customer. My testimony will begin with 
a chronological brief on the evolvement of information sharing in order 
to better show the TSC's impact and how it has enhanced pre-existing 
law enforcement tools.
    Throughout my career in public service, I have been fortunate 
enough to have worked with many of the 540 law enforcement agencies in 
New York State that are comprised of over 75,000 dedicated law 
enforcement professionals who are putting their lives on the line, each 
and every day.
    I have also had a considerable amount of interaction, and an 
excellent working relationship, with my federal colleagues in the 
investigation of organized crime, robberies, homicides, and narcotics, 
crimes that have the potential of crossing jurisdictional boundaries 
and typify the importance of working together and sharing information.
    These close cooperative relationships, many times informal, have 
been instrumental in reducing the incidence of violent crime in New 
York State to levels not seen since the 1960s.
    The ``backbone'' formal information sharing system for state and 
local law enforcement during this time was the National Crime 
Information Center or NCIC. NCIC is a system that reaches law 
enforcement throughout the United States, and has the capability of 
providing information, through a patrol car radio, or an in-car 
computer, to nearly every officer across the nation out on patrol. The 
information contained in this system is what we refer to as ``hot'' 
files: wanted persons, missing persons, stolen cars, and stolen 
property. In the year 2000, in New York State alone, law enforcement 
made 30 million inquiries into NCIC and received nearly 3.5 million 
positive ``hits.'' This is just a snapshot of the effective role state 
and local law enforcement, cooperating in the performance of routine 
duties, can play in reducing crime, and why it remains a critical role 
in the post 9/11 era.
    On September 11, 2001, an organized terrorist group attacked our 
nation. This signaled a new era for our country, as well as for state 
and local law enforcement. This terrorist organization, and others like 
it, is determined to make our country its battlefield. In doing so, 
state and local law enforcement, 75,000 strong in New York State, and 
700,000 nationally, have become our nation's foot soldiers against 
domestic targeted terrorism.
    In New York, as here in Washington, our first and foremost 
responsibility is to do everything humanly possible to prevent another 
terrorist attack by utilizing our 75,000 law enforcement officers. To 
facilitate this effort, we have built an intelligence center near 
Albany, New York, with direct connectivity to the New York City 
intelligence center. From these two points we have created a seamless 
information sharing system that reaches law enforcement in all corners 
of our state.
    Our ultimate objective is to be able to provide timely, relevant 
and actionable terrorism intelligence to patrol officers and 
detectives, which could prevent a terrorist act or enhance a terrorist 
investigation by a federal agency. To accomplish this objective, our 
federal partners have worked closely with state and local law 
enforcement to enhance the exchange of relevant terrorism information.
    NCIC is still the only national system able to reach the State and 
local patrol car. There are three scenarios that a state and local law 
enforcement officer can be faced with during an encounter with a person 
during a traffic stop or an ongoing investigation; the first is what we 
call a ``red light'' stop. In these cases, the patrol officer accesses 
NCIC with a name and date of birth inquiry and receives back 
information sufficient to arrest the subject, as he or she is a person 
wanted by a state or local jurisdiction or by the federal government.
    The second situation involves a ``green light'' stop. This 
indicates, based upon the NCIC name and date of birth inquiry, that the 
person stopped is not actively wanted by any law enforcement agency. 
The third situation is the most complicated and most critical to 
ongoing terrorist investigations. This is what we refer to as a 
``yellow light'' stop, or investigative inquiry. In this situation a 
police officer has someone detained or stopped, the person is not 
actively ``wanted,'' but the officer has suspicions about whether the 
individual is connected to a terrorist related investigation or has 
suspected links to terrorism. It is this ``yellow light'' area where 
the 700,000 sets of eyes and ears can be most beneficial in assisting 
our federal investigative partners.
    Let me provide a hypothetical yellow light situation. A patrol 
officer responds to a call of a suspicious person filming the perimeter 
of a nuclear power plant. The individual is not from the local area and 
has no apparent association with the immediate area. The officer is 
suspicious, and therefore conducts an inquiry into NCIC database.
    Prior to December 1, 2003, the inception date of the Terrorist 
Screening Center, there was no systematic way to conduct a search of 
the various federal databases to ascertain if this suspicious person 
had any ties to an ongoing investigation. The inception of the TSC has 
provided state and local law enforcement, its customer, with an 
important tool to instruct a law enforcement officer in a non-custodial 
situation like the example I provided above as to what, if anything, he 
or she should do.
    Returning to the nuclear power plant hypothetical, I will detail 
what now occurs. The patrol officer queries the name and date of birth 
of the suspicious person through the NCIC system. If the individual is 
a ``person of interest,'' the patrol officer receives a Violent Gang 
and Terrorist Organization File (VGTOF) ``hit'' that directs the 
officer to call a toll free number for additional direction from the 
Terrorist Screening Center.
    Once the Terrorist Screening Center is contacted, additional 
information is provided which places that ``hit'' into any one of four 
(4) classifications; arrest, detain, investigate, or query. This 
interaction also expands to include the FBI's Counter Terrorism Watch 
that has the ability to provide detailed direction and information on 
what action to take next in addition to providing further identifying 
data. The resulting conversation provides the law enforcement officer 
with the specific guidance necessary as to the type of action to take. 
This guidance could include observations to be made, the location and 
time of the observation, questions to be asked, or possibly, that no 
further action is required. This interaction, and the ensuing 
information that is obtained, are not only important for investigative 
purposes, but also for the safety of the officer.
    In New York State there have been 41 confirmatory instances wherein 
a VGTOF ``hit'' was received through the NCIC system and involved the 
TSC. The most recent of which occurred with the New York State Police 
when a uniform trooper made a vehicle and traffic stop that resulted in 
a traffic ticket being issued and an inquiry was done through the NCIC 
computer to ascertain if the subject was wanted. This inquiry resulted 
in a VGTOF hit which put the investigating Trooper in touch with the 
Terrorist Screening Center who, in turn, advised the Trooper that the 
individual queried was the subject of an investigative ``hit.''
    The trooper was conferenced with the Counter Terrorism Watch, which 
was able to provide additional information to the trooper as to what 
action to take next. This, in turn, resulted in the notification of the 
local Special Agent of the FBI's Joint Terrorist Task Force. I am 
confident that this interaction provided valuable information to the 
FBI on a subject currently under investigation.
    Lastly, I would like to mention a pilot program that complements 
the TSC and highlights the history of information sharing between 
federal and state law enforcement. Initiated by New York State and the 
FBI, this program commenced prior to the TSC in October of 2003. In 
this program, the patrol officer contacts our intelligence center 
concerning a suspicious or ``yellow light'' stop with no VGTOF hit. Our 
intelligence center then contacts the FBI's Counter Terrorism Watch in 
Washington, DC, to ascertain if the individual detained is a person of 
interest. The Counter Terrorism watch then queries the FBI's automated 
case system in addition to other databases, providing our state 
intelligence center with relevant information for the patrol officer. 
Director Robert Mueller assigned a Washington based Counter Terrorism 
watch agent to New York and local law enforcement initiated 114 
inquiries, some of which resulted in investigation hits. New York State 
is working with the Federal Bureau of Investigation to formalize this 
pilot project and expand it into a regional ten state information 
sharing initiative. This ten state regional proposal is a concept that 
was previously introduced during July 2003 testimony given by James 
Kallstrom, senior Advisor on Terrorism to Governor George Pataki, and 
submitted to the Department of Homeland Security. DHS endorsed the 
regional concept.
    I truly believe that, together, we have come a long way in 
understanding the importance of involving state and local law 
enforcement, its capabilities and its needs in preventing terrorism. 
This would not have happened if it were not for the full cooperation of 
our federal partners. The Terrorist Screening Center, the NCIC, the 
VGTOF file, the FBI Counter Terrorism Watch center, the Terrorist 
Threat Integration Center and the JTTF expansion, including the 
national Joint Terrorist Task Force, all have built a foundation that 
will provide the integration necessary to protect our homeland from 
future attacks. I also believe our proposed regional concept will 
compliment the Terrorist Screening Center and will be instrumental to 
the Department of Homeland Security in providing specific threat based 
intelligence information to state and local partners.
    In closing, I would like to thank each of you for allowing me to 
provide a state and local law enforcement perspective on this critical 
matter.

    Mr. Coble. Mr. Berman, you are recognized for 6 minutes.

             STATEMENT OF JERRY BERMAN, PRESIDENT, 
              CENTER FOR DEMOCRACY AND TECHNOLOGY

    Mr. Berman. Chairman Coble, Chairman Gibbons, and Chairman 
Cox, it is a pleasure to be here again to testify on the 
intersection between national security and civil liberties in 
this age of terrorism.
    We as an organization are very concerned about the national 
security issue. As a member of the Markle Commission, I call 
your attention to their report. I am not speaking for them 
today, but the report of the commission I was on recommended 
the consolidation of terrorist information, threat information, 
including watchlist information, but under direction by this 
Committee, that it should be under standards, guidelines, 
oversight and management supervision. Congress gave that job to 
the Department of Homeland Security. It set up a Privacy Office 
and a Civil Liberties Office, and the idea was that these lists 
would be consolidated but under standards that would protect 
civil liberties, ensure data quality, and ensure that 
dissemination was correct to the right people; that this 
sensitive information did not go where it didn't have a need to 
go; that there would be ways to get off the list.
    That job is not being done. As I said in June, the 
oversight responsibilities are not being handled by DHS. At 
that time, we were talking about TTIC, which looked like it was 
going to do the screening function. TTIC is not part of DHS. 
After I testified in September, the Terrorist Screening Center 
was set up again under another Presidential directive, and what 
it did was move a function which had been at FBI, then gone to 
DHS, and then gone back to the FBI. In terms of overall 
supervision to ensure clear standards, oversight, guidelines 
and civil liberties protection, it is not within DHS, it is 
within FBI. And I don't think they have authority under any 
statute that I can find to perform the functions that the 
Committee laid out in its report for accuracy, completeness and 
timeliness.
    Let me get down to the bottom line. I do not know what 
standards are being applied here. All I know is that Secretary 
Ridge the other day said, There are right now 50,000 names in 
the terrorist watchlist at TSC. Several hundred of them have 
been, and I am quoting, ``are engaged in criminal activity, 
potential connections to terrorist organizations and the 
like.'' Who are the other 49,500 people in the database? I 
don't think that right now TSC has the authority to decide who 
goes in that database. TTIC is entering the foreign 
counterintelligence people. The FBI has entered their whole 
domestic terrorism list. That includes people suspected of 
engaging in terrorism who may be the Oklahoma bomber, or it may 
be an environmental organization or an abortion clinic. We 
don't know who is in that database, and this Committee has to 
make an inquiry about how that is done.
    We don't know how information is purged. The MOU I have 
read between these agencies really gives the authority back to 
the FBI and to CIA and other agencies which maintain the 
watchlists in the first place, to continue to make decisions 
about who is in that database. When the Director of TSC says 
that it is under their statutes, their policies, and their 
guidelines consistent with the Constitution, that is not 
sufficient, because different agencies have higher standards 
for entry; different agencies have different needs.
    Even if we are going to have a complex integration under 
different standards, we need to know what those standards are, 
what are the levels of access, who gets on it and who gets 
where. The policeman on the beat right now, when he queries 
that database, is not sure whether it is an arrest, detention, 
or inquiry, because there are so many people in that database. 
He has to go off line and talk to people and go back through a 
whole chain of bureaucracy to see whether it is a serious 
person he has encountered on the street.
    On the other end, people may be detained, denied the right 
to travel, denied employment and so forth, because they are on 
the list and no one has cleared their name, or they are a 
mistaken identity, or it is overinclusive and including people 
who are not the hard-target terrorists.
    Under a system which is too broad, you have the same 
problem that you had after 9/11, people are going to fall 
through this list. We talked to police officers who are not 
calling this number and don't know about the number and don't 
know how to call it and don't know until a day later that they 
may have had a suspected terrorist on the street. And then we 
know there are mistaken people in the database, which raises 
due process and civil liberties questions.
    I will return to all of this in questioning. Thank you very 
much.
    Mr. Coble. Thank you, Mr. Berman.
    [The prepared statement of Mr. Berman follows:]

                   Prepared Statement of Jerry Berman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. The Chair recognizes Chairman Gibbons for 5 
minutes.
    Mr. Gibbons. Thank you, very much, Mr. Chairman.
    I first direct my attention to Director Bucella, and thank 
you again, Director, for appearing here today. And I am sorry 
to have to throw you a hypothetical question to begin with, but 
I believe it really gets to the heart of the matter that we are 
dealing with here.
    The Intelligence Community knew in early 2000 that two of 
the potential terrorists were meeting with al Qaeda operatives 
in Kuala Lumpur in Malaysia. These terrorists, Kalid al-Midar 
and Nawaf al-Hamzi, turned out to be two of the September 11 
hijackers. If al-Midar and al-Hamzi were pulled over by a 
police officer in the United States today, would we be able to 
identify them and would we have caught them if they had been 
pulled over today with this watchlist?
    Ms. Bucella. Hypothetically speaking, anyone that has been 
identified by a Government agency, whether it be in the prior 
TIPOFF list by the State Department or by any other agency and 
was put in the TIPOFF, if those two individuals were in fact in 
that, when they are stopped for a traffic violation, a routine 
traffic violation, there would have been some indication that 
they needed to contact the Terrorist Screening Center for 
coordination with us. But I can't hypothetically speak without 
having some more facts as to how they would have been--what 
guidance would have been provided.
    The names that are in our database, for example, the files 
are being reviewed and that is why we provide some guidance as 
to--with CT Watch as to when there is an encounter, when there 
is a face-to-face contact, what the officer--what questions the 
officer needs to do.
    As you previously heard, there are four basic guidelines. 
One is to arrest. But you can't arrest somebody unless there is 
probable cause to believe a crime is committed here in the 
United States. Second would be to detain, and there is a valid 
detainer on the person. Third would be to stop the person, ask 
them questions, and there would probably be a drop-down menu of 
a series of questions that have been recommended by the 
originating agency, whether it is the FBI or CIA, as to areas 
which if they encounter that person, what kinds of questions 
would you want us to ask if you had encountered that person. 
And the fourth category is to question in the standard 
operating law enforcement capacity and release.
    The big difference is, though, that now that information 
goes back from the patrol officer, goes to the JTTF and back to 
whomever put that person or who was investigating that person 
into the database. And that information is invaluable for 
intelligence information for a number of reasons. One, just 
because you are pulling someone over and they have the same 
name doesn't necessarily mean they are, in fact, that 
terrorist. They may have the same name. There are other 
identifiers.
    In our database, we are not the mother of all databases. We 
don't have all the derogatory information. That stays with each 
of the originating agencies. All we have in our database is the 
name and several identifiers. It is an identities database. It 
is not the recordholder for every Government agency. We have 
the capability of looking at these case files of each of the 
different Government agencies, and some are highly classified. 
That information will assist the State and local law 
enforcement officers with the identities match. As to all the 
details of that, that information is not shared by us.
    Mr. Gibbons. I presume, then, also from what you have said, 
that if this person or these persons had been pulled over by a 
routine traffic stop and they did not have--or had false 
driver's license, forged documents, they probably wouldn't be 
in that database under that name and would not have been 
captured if they had used false documents.
    Ms. Bucella. One slight correction. Some of these people do 
carry their false identities with them. They sometimes carry 
several identities with them, several different passports, 
different documents, driver's
    licenses. Fortunately, the State and local law enforcement 
officers first on the ground, they are there. If they see false 
identification, there are various State laws in which they can 
pursue that. So it is not all the time that somebody might have 
a false identification and that would be it. There are times 
that if they do have false identification, though, there would 
be no way for us to identify unless, of course, they were 
driving a vehicle that is not owned by them, and then there 
would be some further inquiry.
    We rely to a great extent on the State and local law 
enforcement officers doing what they do every day, and that is 
questioning individuals that violate the State laws.
    Mr. Coble. Gentleman's time has expired, and we have a vote 
on. And I will say to the Members who are here, we are going to 
vote and come back immediately and continue the questioning.
    [Recess.]
    Mr. Coble. We will resume our hearing. Since this is a 
joint hearing, folks, procedurally the way we are going to do 
this, we are going to go Democrat, Republican, Democrat, 
Republican, and we will start with the Subcommittee Chairmen 
and Ranking Members, and then I will recognize the Chairman of 
the full Committee and his Ranking Member.
    The Chair now recognizes the Ranking Member of the 
Subcommittee, Mr. Scott from Virginia, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And, Director, I wanted to follow up on the questions the 
gentleman from Nevada was asking about what happens after you 
get a hit. What provokes an inquiry to the system? Because 
usually you go through a normal outstanding warrant system just 
as a kind of routine. You get a traffic stop. They just kind of 
check, just run your name through the outstanding warrants to 
see if they have got an outstanding warrant. But what provokes 
this additional step to the--to this list?
    Ms. Bucella. The process is that when they check through 
the NCIC, there now is a separate designation for those that 
are known or suspected terrorists. That is separately. That has 
nothing to do--there is nothing else--they would not call us, 
for example, if there was just an outstanding warrant for a 
drug case or something like that.
    Mr. Scott. If you have a traffic stop and run the normal 
run-of-the-mill check, will that access this hot list?
    Ms. Bucella. Yes.
    Mr. Scott. Automatically.
    Ms. Bucella. Yes. And if there is a person that is, in 
fact, a known or suspected terrorist, the NCIC will give 
guidance through the instructions to contact the Terrorist 
Screening Center.
    Mr. Scott. Okay. Now, if there is no outstanding warrant 
for a person, what does the--what could the police officer 
possibly do?
    Ms. Bucella. As I mentioned before, there are four 
instructions. If there is no warrant that is out, then you 
can't arrest them, and there can't be a detention. But the 
other two would be to stop, ask questions. As I mentioned to 
you before, the instruction could, in fact, be to ask questions 
as to where the person has been, any associates, where are they 
going. Many of those questions would be asked in the normal 
course of interaction between a local law enforcement officer.
    Mr. Scott. You get a traffic ticket, and you start asking 
about where you have been? I would think that the person might 
say, sir, am I under arrest, or may I go? Then what?
    Ms. Bucella. Well, when someone does get pulled over, 
sometimes the officers do say, what is your hurry, where are 
you going? It depends on what the interaction is with the State 
and local law enforcement officer and the individual that has 
been pulled over.
    Mr. Scott. And what can you do when the person says, am I 
free to go?
    Ms. Bucella. Well, that depends on what they were pulled 
over for.
    Mr. Scott. A traffic violation.
    Ms. Bucella. If they, for example, were arrested for a 
traffic violation for running someone over, DWI, driving 
without headlights, driving 100 miles an hour in a 30-mile-an-
hour zone, then the State laws would pick up.
    Mr. Scott. Right. But I mean if you get a run-of-the-mill 
traffic citation, speeding, and you run it through, and you 
find he is on the hot list, but no outstanding warrant, what 
happens?
    Ms. Bucella. No outstanding warrant, they would ask 
questions and release the individual and pass the information 
back to--if the Joint Terrorism Task Force was involved, that 
there had, in fact, been an encounter.
    Mr. Scott. How close--when you have names that are similar 
or the same, if you had a Robert Scott that is on the terrorist 
list, what is going to happen to me if I have a traffic ticket?
    Ms. Bucella. Well, again, depending on the individual 
situation, what we have are the names and identifiers, so, for 
example, if a Mr. Scott is in the--our database, and he is 4 
feet tall, clearly you would not--that would be one indicator 
that the person that the law enforcement officer is, in fact, 
encountering is not the person that has been identified as a 
known or suspected terrorist.
    Mr. Scott. You have height, weight, age, birthdate?
    Ms. Bucella. Right now, because there are a number, as I 
mentioned before, we have the accessibility to some of the 
classified databases. Some of the identifiers are, in fact, 
classified information. The people at the call center do not 
release the information. What they do is they elicit 
information from the police officer. They will ask, for 
example, what we would have--the nonclassified identifiers 
right now are the name, the date of birth, the passport number 
and the country of origin. The other identifiers, height, 
weight, could, in fact, be classified. The officer would not--
we would not ask the officer to please tell us if he has brown 
eyes, tell if he is wearing glasses, tell us if he has got gray 
hair. We would say, please describe any other identifiers, 
height, weight, that information, so that we are not releasing 
any classified information.
    Mr. Scott. And is there an objective criteria to get on the 
list; and if your name is wrongfully on the list, to get it 
off?
    Ms. Bucella. Let me explain this list concept. We have--the 
way our--the names have come to us, come to us from a number of 
different Government agencies. Obviously, the State Department, 
in putting names in their list, they have a much lower bar, 
because what their encounters are with people at embassies 
trying to apply to get visas to come to the United States. So 
the State--Department of State has a very, very low bar. They 
have identified individuals who are known or suspected 
terrorists that would never be arrested based on our bar here 
in the United States coming into the United States. The 
information has been gathered by many different agencies such 
that there is a different bar if someone is coming at our 
borders. It is a much higher bar than denying somebody from a 
visa. Then once somebody comes into the United States, it is 
even a higher bar if there is an arrest, because there has to 
be probable cause to believe that that individual has, in fact, 
violated the United States laws, or violated a State law.
    So there are many different levels, and based on the 
different levels of information and where the encounter is, is 
what then prompts the Counterterrorism Watch to give the 
guidance to the local law enforcement officer who is 
encountering that individual. So, therefore, the information 
that they may actually just say is, ask questions and allow 
them to go.
    Mr. Scott. Can I have one quick follow-up? Is this just for 
foreign people? I mean, if you have a domestic terrorist, what 
happens?
    Ms. Bucella. There are two different forms of information 
that feed into our center. Domestic terrorism names, they come 
from the FBI, and the international terrorist names come from 
or through the TTIC, and they come from all various different 
agencies. So at our center we have both domestic terrorists 
names as well as international terrorist names in our database.
    Mr. Coble. I thank the gentleman.
    Thank you, Director.
    Folks, if time permits, we may well have a second round of 
questioning.
    I recognize myself for 5 minutes. Director, I know you have 
a good working knowledge and some degree of expertise for both 
the Department of Homeland Security and the FBI. Tell me, or 
tell us, if you will, why the FBI was chosen to administer TSC 
in lieu of Homeland Security, and whether it is your belief 
that the FBI is the better choice.
    Ms. Bucella. I am a DHS employee. I am with the 
Transportation Security Administration. My Deputy is also from 
the Department of Homeland Security. We also have another 
Deputy that is from the FBI, as well as an individual, another 
department, from the State Department, so we really are a joint 
partnership. At our center, I have representatives from CBP, 
from ICE, from Secret Service, from the State Department, from 
the FBI. It is a whole conglomeration. The FBI was tasked with 
this, and I do report directly to the Director of the FBI 
because we had to set the center up immediately. Because of the 
sensitivity of the information that we have at our center, a 
number of individuals, their clearances--they are working in a 
very secure environment--the clearances of individuals, people 
already had to have their clearances. The FBI was able to set 
this up from concept to actual operations in probably a little 
bit more than 45 days, and we actually set up a command center.
    Mr. Coble. Okay. I need to move along because we impose the 
5-minute rule against ourselves as well, and I want to get a 
couple more questions in.
    Mr. McMahon, have there been any instances where you 
believe information should have been provided to local law 
enforcement that was not provided?
    Mr. McMahon. Since the inception of the TSC, we have had no 
problems, and we have been able to coordinate with the TSC and 
get the information back down. But I do--I have to say that we 
did a very extensive outreach of instructions to all law 
enforcement, State and local, in New York State on just how the 
process works, how to use it. And we did training including 
with that, and we are going to do some follow-up training. So 
we have not----
    Mr. Coble. The lines are open and free-flowing?
    Mr. McMahon. The lines are open.
    Mr. Coble. Good.
    Mr. Berman, Director Bucella has described some safeguards 
for civil liberties. What safeguards would you suggest?
    Mr. Berman. There has to be a set of clear standards, which 
are articulable and public, that we can debate about who goes 
into this terrorist watchlist. I am not--I would say that there 
may be more sensitivity on the foreign counterintelligence side 
where foreigners are involved who are dangerous. They are under 
classified guidelines. But with respect to U.S. persons and 
citizens in this country, I believe that the guidelines have to 
be public and articulable so that we know who is going into 
this database.
    I believe there need to be clear levels of access, 
depending on the kind of watchlists being involved. The 
Director talked about different levels of sensitivity and 
different bars. We need to know what those are. There has to be 
a system of data quality to know how this system is being 
purged, how information is being corrected, so that 
misidentification, which is all too common, does not occur, 
because of the consequences that follow.
    And there also has to be redress. If someone is not able to 
fly or is denied a job on the basis of incorrect, inadequate or 
wrong information based on terrorist watchlists, they ought to 
have redress. And some of that can be accomplished under--if 
this screening function was under the Department of Homeland 
Security, which has at least the privacy officer and a civil 
liberties officer, but part of it would require some statutory 
changes.
    Mr. Coble. Let me beat the red light by putting a question 
to Director Bartoldus. With the transfer of the TIPOFF 
Terrorist Watchlist function to the TSC Director, have the 
capabilities of other governmental entities with screening 
known and suspected terrorists been improved, and if so, how?
    Mr. Bartlett. The primary improvement in the new system 
with TSC is the ability of our personnel to contact the TSC 24/
7. Under the old TIPOFF program, the contact office was 
available between 6 a.m. And 10 p.m. At night. On weekends or 
at nights when we encountered somebody, we had to require a 
State Department employee to drive in, access a file, give us 
the answer, many times creating a several-hour delay. The mere 
fact that we get all responses in 20 to 30 minutes or less is a 
major improvement in the system.
    Mr. Coble. Thank you, sir.
    I see my time has expired. Now Ms. McCarthy would be next 
in line. I recognize the gentlelady from Missouri for 5 
minutes.
    Ms. McCarthy. Thank you very much, Mr. Chairman, and my 
thanks to the panelists for sharing their wisdom with us today.
    Congress requires you to implement a system for analyzing 
information on terrorist threats, and that you also have a 
relationship with TTIC in order to do that. TTIC is housed in 
the CIA. And I wondered--many of us in Congress thought that 
was probably unwise to separate the two when the information is 
so important for us to have. I wonder if you would comment on 
how that is working.
    And also, the director of the State of Missouri Office of 
Homeland Security, Tim Daniels, among others I visited with, 
tells me that information-sharing, as you discuss it here 
today, needs to go both ways, not just at the Federal level 
among agencies like you and the CIA, but with the State and 
local information offices and directors and personnel so that 
it can be--it would be timely and significant. And in your 
testimonies today, many of you reflected on incidents that have 
been important, and they have come from--in some instances they 
have come from those local first responders, some of whom are 
with us today, and we thank every one of you.
    So I really wonder if you--I would welcome any input you 
have on how we in the Congress can help best complete that 
information loop so it is indeed a loop, that information from 
local entities, local first responders actually, once it gets 
in the information loop, gets to the Federal level where you 
need it when you start hearing that from different locals, all 
of a sudden bells and whistles can go off, and we can be much 
better informed. Tell us what we must be doing to assist you in 
that goal that I know we all share. And anyone is welcome to 
comment on this.
    Director Bucella, perhaps you would like to start, and 
Director McMahon, I would love to hear from you.
    Mr. McMahon. I can just give you an example of what we are 
doing to try to do that in New York State. I think it is very 
hard for any Federal entity to try to get information coming in 
from every emergent first responder, and what we did is we set 
up counterrorism zones, we call them, in New York State. They 
are 16 geographical areas that brings local law enforcement 
together, and then they address, from their geographic 
perspective, what they see as critical problems dealing with 
terrorism there, and they bring the first responder community 
in.
    Then we set up a State intelligence center so that you 
don't have a bunch of stovepipe systems where we can filter a 
lot of that information up to a Federal level, see what is 
specific to New York, what should go up to a State level, up to 
a Federal level.
    So we are really looking at what could be intelligence and 
what is just information nice to know. And I think that helps a 
lot from a Federal standpoint at both DHS and both the FBI. So 
that has kind of been our answer in these counterterrorism 
zones, and we have a separate network for those that we get 
advisories out to law enforcement, and then we get an advisory 
below that level, some to the private sector, different 
sectors, whether it is the chemical sector, the energy sector. 
And then we also do it through emergency managers, fire and 
stuff and that way, and that has been working out very well.
    Ms. McCarthy. And do you feel like when you send that 
information to the national level that, in fact, someone is 
listening.
    Mr. McMahon. Yes. Yeah. We are----
    Ms. McCarthy. How do you get that assurance?
    Mr. McMahon. Because we do--we talk. It is not going up 
electronically. We talk back and forth with them. They are 
accessible on doing that.
    But I will tell on you the Federal agency standpoint, they 
are part of our counterrorism zones. The FBI at the three 
resident offices are an integral part of it. So much of the 
information flow, too, comes down through them to us in a very 
timely basis on that.
    So we have had a wonderful relationship with the Federal, 
our Federal counterparts--and I will go back to the last orange 
alert. We at the State and local level had the best, most 
specific information of any of the orange alerts. They were 
general before, to be perfectly honest. And we did--for the 
first time we did conference calls with our counterterrorism 
zones, and the FBI got on the conference calls along with the 
head of intelligence from the New York City Police Department. 
We really could put together a State perspective, and the 
feedback from all law enforcement to us was that is very 
beneficial and helpful.
    Ms. McCarthy. And I bet it was helpful to the constituents 
we all serve, because that is part of the confusion we all have 
on what these colors mean and how best to react to that.
    But let me turn to our national Federal voices.
    Ms. Bucella. Thank you.
    Congresswoman McCarthy, you have just identified a 
tremendous and enormous challenge for us. Right now in the last 
4 months that we have been operating, we have been trying to do 
a tremendous outreach, not only just to our Federal agencies to 
find out sort of how they are operating, but also with our 
State agencies. There are 50 different States and I have called 
the director of homeland security for one of the States just 
because I knew the person and said, do you have a list? I mean, 
I know the Feds have it. Do you have a list? And the answer is, 
what do you think? I mean, it is that type of thing.
    There is much work to do. We, as the United States, have to 
operate in a coordinated effort. That means across State and 
Federal lines. We are the--the Feds are not the experts in what 
is going on in the States. The State law enforcement officer 
knows who is sort of out of whack in their neighborhood. Or 
they have threats, or they are aware of sensitive areas. But 
that information is getting up and going through the various 
Federal agencies, but there needs to be a coordinated approach.
    And at the Terrorist Screening Center we are trying, and we 
are seeing ourselves as the facilitators of that approach. We 
have the incredible perception from where we are sitting to be 
able to see what is happening in California and Oregon and 
Mississippi, and we are able to reach back through the JTTF to 
get them to talk to the State and local law enforcement 
officers.
    We are merely a facilitator, and we have seen some very, 
very unique opportunities. I know that we had New York come to 
visit us after they heard about this intelligence center, and 
they wanted to know, quite frankly, what were you, the Feds, 
doing; and were you doing what we are supposed to be doing. And 
we found out it was a perfect match.
    Mr. Coble. Director, the gentlelady's time has expired. If 
you can hold that thought, perhaps share it with us 
subsequently.
    The Chair now recognizes the Chairman of the House Homeland 
Security Mr. Cox for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    I wonder if I can start with Ms. Bucella and ask you what 
you think should be the role of the Department of Homeland 
Security in TSC.
    Ms. Bucella. Well, right now the role has been very 
aggressive because myself--and I am with the Transportation 
Security Administration, my Deputy is, and many of our people 
are. I think, first of all, that the Terrorist Screening Center 
should always have representatives from every single agency. It 
should not be one type of response. The absolute benefit that I 
have seen on a day-to-day basis is the expertise that everyone 
brings to the table with them at our center. We hope soon that 
we will be able to have members from DEA, the Postal Service. 
We also have people from the Office of Foreign Asset Control. 
We are also going to probably have people there from FINCEN.
    There is an incredible benefit to have the richness and 
diversity of all our different agencies and to include, to 
bring somebody from State and local to be working side by side. 
This is not--this is not a--one answer of one person's going to 
take care of this. This is a cooperative effort where the 
United States Government has to be working in a seamless 
fashion.
    Mr. Cox. Do you work together with Daniel Sutherland?
    Ms. Bucella. No. I am not sure what Mr. Sutherland's 
position is, sorry.
    Mr. Cox. Okay. How about Nualla O'Connor?
    Ms. Bucella. Yes. Nualla, absolutely. One of the things, 
the reasons, why I know Nualla is--obviously being a lawyer 
myself, I believe in bringing the lawyers up front when you 
start and not later on. And we have had a number of meetings 
with not only the FBI privacy lawyers, DHS privacy lawyers, TSA 
privacy lawyers, Nualla chaired a meeting, because we are very, 
very concerned about the misidentification issue. We want to 
make sure that if people are stopped, and they have the same 
name, if there is any other discriminating factor that we could 
put in our database to say that person is not the one, then 
that is what we want to do, because we really are concerned. I 
personally am concerned that we don't stop people that--unless 
we know that they are known or suspected terrorists, and the 
only way we are going to be able to do that is to be able to 
gather as much information from those people.
    And Nualla has absolutely helped certainly in the 
discussion, and we have some documented procedures about how we 
work on some of the encounters. In fact, while we have been up 
in the last 4 months, we have really had a number of people, 
somebody, for example, working in the United States but living 
in Canada, and one morning they come in. The next--that night 
they leave. They get stopped. Secondary, secondary. The next 
morning the person comes in again, and finally, among my staff 
I said, I want to know why that person is on--why they are 
stopped, why they are on secondary, and let's see if it is good 
information or if it is outdated information. That individual's 
name was, in fact, taken off of one of the databases, the case 
management databases, based on old and outdated information. We 
did not do the operational response. We sent the JTTFs out 
there. That is exactly what they are supposed to do.
    Mr. Cox. The reason I asked about Nualla, of course, is 
because it is important that are you doing exactly what you 
described, and I am happy to hear that. The reason I asked 
about Daniel Sutherland is that he is the officer for civil 
rights and civil liberties. In title I of the Homeland Security 
Act, we created that officer right underneath the Secretary 
with responsibility, cross-cutting responsibility, for all the 
directorates because of the priority that Congress placed on 
this, which brings me to Mr. Berman's point.
    Let me ask you the same question. What do you think should 
be the role for the Department of Homeland Security in this 
matter?
    Mr. Berman. Well, I think it really should be demonstrable, 
looking at the standards by which people are entered into 
these--into the watchlists. And we were hoping that Homeland 
Security would publish at least standards for U.S. persons 
about who would be qualified, is it limited, or at least verify 
to the public that it is limited to dangerous people who are 
wanted overseas or who may enter the country. Is it people who 
are really under probable cause to believe that they are 
engaged in terrorism or reasonable suspicion that they are 
engaged in terrorism, or does it reach all the way to anyone 
who is of interest to the FBI under any preliminary inquiry?
    There is a whole set of standards, but they become lower, 
with less evidentiary and then almost no evidentiary support. 
Do those people get entered into this watchlist?
    Mr. Cox. Now, those are all good questions. I understood 
your testimony to include the assertion that while Homeland 
Security, the Department, has privacy and civil rights, civil 
liberties officers, that that does not exist in TSC or its 
parent as it is presently set up. I mean, is that right? Is 
there nothing analogous to the civil rights, civil liberties 
officer or the privacy officer at the FBI?
    Mr. Coble. Mr. Berman, if you could make your answer terse, 
because the 5 minutes have expired.
    Mr. Berman. There is no ombudsman or privacy officer, civil 
liberties officer. There is an inspector general that keeps 
working on the FBI, at the Justice Department, but there is 
no--there has been a proposal to create a privacy officer at 
the FBI, but there is no such officer. We did not want to 
create privacy officers maybe at every agency, but to have some 
coordinating approach to both the national security side, but 
also the civil liberties side.
    Mr. Cox. Well, the Chairman has been indulgent. It is only 
5 minutes, and the time has expired.
    Mr. Coble. I thank the gentleman.
    The Chair recognizes the gentleman from Texas, the Ranking 
Member of the full Committee, Mr. Turner for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Director Bucella I want to inquire a little bit about how 
far we are along in developing a Terrorist Screening Center 
that meets the criteria that is set forth in the document that 
I know you have and I referred to in my letter to you a few 
days ago. And I want to be sure that I am reassured that you 
have the vision as to what we need to put together here.
    Obviously, you have been at this job, I think, since 
December when this task was passed back to the FBI, and as you 
know, I have been quite concerned that the job has been passed 
around two or three different places since 9/11 before it 
finally settled somewhere and some progress began to be made.
    But it does disturb me when I hear you giving your report. 
You made reference to, you know, 50 visas have been revoked as 
a result of Terrorist Screening Center. In my judgment, unless 
those holders of visas were determined to be terrorists 
suspects after they got their visa, they never should have 
gotten a visa in the first place.
    And so I am concerned that we are not yet envisioning the 
Terrorist Screening Center consistent with the 10 criteria that 
I set forth in the document I forwarded you. For example, are 
you confident that you have obtained all the terrorist 
watchlist information from every agency of the U.S. Government? 
Is it all accessible to you today?
    Ms. Bucella. Since September 23, when the HSPD-6 came out, 
and up until today, there is enough--there is a lot of 
information out there within all our Federal Government. We 
have a number of names. But we endeavor--and this is a work in 
progress--to be able to get all of the names from all of the 
different Government agencies.
    Mr. Turner. And so your answer is no, you do not have it 
all. And I think specifically, from a previous briefing you 
gave the Committee staff, one of those areas is the Department 
of Defense. Several of us on our Homeland Security Committee 
have been down to Guantanamo, and we all know the Defense 
Intelligence Agency, the naval intelligence, all these agencies 
within DOD have a lot of names of suspected terrorists who can 
move by airplane flight in less than 24 hours. And I hope that 
we can continue to pursue the objective of getting all the 
information from all agencies of Government into the Terrorist 
Screening Center watchlist.
    Next question I have for you is are we making efforts to 
transform what I understand your current status to be, and that 
is to be a call center where people can call in and ask a 
question, and then, as I understand it, whoever took the call 
would turn and talk to an individual in your office that may be 
sitting at a terminal operated by the State Department, and may 
turn to somebody operating a terminal for some other agency 
that has a watchlist, and then turn to somebody else, and they 
all do their work, and, as has been suggested, within 20 or 30 
minutes maybe you can get a check? I have been told that some 
of these watchlists are checked overnight; that you do not have 
the capability within 20 or 30 minutes to check all of these 
watchlists. And what I see we are doing now is piecing this 
together with bailing wire.
    We have got people in your shop that have access to a 
computer terminal, but I want to know, do we have, today, 
efforts ongoing and contracts outstanding to integrate the 
database of every agency of the Federal Government that has a 
terrorist watchlist into one unified terrorist watchlist at the 
Terrorist Screening Center?
    Ms. Bucella. Congressman Turner, first we currently have a 
database with the names and identifiers of a number of known 
and suspected terrorists. When a phone call comes in, it is 
usually from a dispatcher, or it could actually be from the 
NTC. Our turnaround time is very quick. As a matter of fact, I 
think one of my colleagues here will tell you how fast some of 
the turnaround time is. We do not have somebody answering the 
phone and then calling to the State Department person across 
the room and saying, could you go up on your database?
    One of the requirements at our center is that once you walk 
in, you wear the TSC hat. And we have people that have 
accessibility, not just FBI agents, but BICE and CBP 
individuals that have accessibility to the FBI database, that 
they are sitting there. So the person picking up the phone 
actually could have accessibility to all of those databases 
right there in front of them.
    But those databases are not just watchlists. Those 
databases contain information and case management information. 
That will never change. Our database will only have the names 
and identifiers in there. As to all of the other derogatory 
information as to why that person has been identified by one of 
the Government agencies as being a known or suspected terrorist 
will not be in our own database. That is not what HSPD-6 had 
dictated.
    HSPD-6 was very, very clear. We are only to facilitate in 
the identities match, and therefore our database has to be 
unclassified, but sensitive law enforcement and would just 
contain the information regarding the identifiers.
    Mr. Coble. Director, Ms. Bucella, I regret having to 
continue to interrupt you and put a muzzle on you, but if you 
could wrap that up because we have Mr. Dicks waiting, and we 
have Mr. Keller waiting, and the gentleman from Texas' time has 
expired. If you could wrap up momentarily.
    Ms. Bucella. I will wait for someone else to finish the 
question, sir.
    Mr. Coble. Very well. The gentleman's time has expired.
    The gentleman from Florida Mr. Keller is recognized for 5 
minutes.
    Mr. Keller. Well, thank you, Mr. Chairman. I have got 
several questions.
    Let me start with Director Bucella. Let me give you just 
like a realistic scenario, and you kind of educate me on how 
this works. Let's say that there is a man we will call 
Almidhar, just because that is a famous name, who is just flat 
out on the terrorist list. There is no dispute that you are 
maintaining his name on the Terrorist Screening Center list. He 
comes to the Orlando International Airport 2 hours before his 
flight to Reagan National in D.C. He walks up to the ticket 
counter. He pays for a ticket at the--with the lady who works 
for USAir. She gives him a ticket. Now we have captured that 
name. Who then does the check that compares the passenger 
manifest with the terrorist watchlist?
    Ms. Bucella. Currently what happens is the airlines right 
now has the no fly list, and so they would look at the no fly 
list. The no fly list was incorporated in our terrorist 
screening database. The TSA intel unit would then contact us. 
We would then contact through the NTC, which is really our--
they are our dispatcher. They are the dispatcher, would then 
give the instructions as to whatever to do. We do not give the 
instructions as to what to do with the encounter. We are not in 
an operational setting. We are only there to facilitate the 
identities match.
    Mr. Keller. So it is not the nice little lady that you buy 
the ticket from, she puts the name in the computer, and 
somewhere in the bowels of some basement somewhere there is a 
USAir, a TSA person, who has the no fly list, and they say, 
hey, there is a problem?
    Ms. Bucella. Probably in that case, well, if the person is 
here in the United States, and they are a terrorist, it depends 
on where they are going and what other interaction they are 
going to have, and it also depends on what--for example, what 
DHS has put in their lookout system as to what to do with that 
individual.
    Mr. Keller. So this name sounds suspicious, this Almidhar 
name. Who then shows up to gather more information? Is that a 
Customs and Border agent?
    Ms. Bucella. It is ICE.
    Mr. Keller. Mr. Bartoldus, Director Bartoldus, is that who 
shows up, your guy?
    Mr. Bartlett. In the--for an international flight it would 
be CBP officers. We would immediately have queried in the 
system, contacted TSC, and then we contact locally ICE and 
JTTF. Normally, depending on who owns the record, FBI and ICE 
will both respond on site with our officers. At the same time 
through the National Targeting Center we have contacted Donna's 
office.
    Mr. Keller. So you can compare, there is a lot of people 
with similar names, but you mean you can look at dates of birth 
and Social Security number and height and weight, and it is not 
just a computer science. There is an art to this as well. There 
is some judgment call by the Customs and Border agent; is that 
right, Director Bartoldus?
    Mr. Barton. That is correct. There are many of these 
queries that, when do you the interview, we have the level of 
data to make a determination whether it is a match or not 
almost immediately.
    Mr. Keller. In my district of Orlando, Florida, Jose 
Melendez-Perez stopped the 20th hijacker without any computers 
at all, just through being a sophisticated agent who asked the 
right question, correct?
    Mr. Barton. People are a major part of our defense.
    Mr. Keller. Okay. Now, some of the questions that were 
raised by Mr. Scott and Mr. Berman concern the mistaken 
identity issue, and let me just raise those with you, Mr. 
Berman. Mr. Scott says what if a guy named Bobby Scott is 
driving down the road speeding 55 miles an hour in a 30 zone, 
and he gets pulled over? And the local police officer does an 
NCIC check, and he is concerned that he is going to be 
detained. Now, it is my understanding that, once again, the 
dispatcher gives the officer the information, and he has the 
discretion to arrest. And so--if Bobby Scott is a hit. But we 
look at this Bobby Scott, and he has a different date of birth 
and a different Social Security number and a different weight 
and a different height, and that officer says, you know, I am 
going to arrest him anyway. You are probably going to have some 
civil liability for false arrest or a 1983 action. Isn't that 
correct?
    Mr. Berman. You have a--the data that you just ticked off 
is not in this database. So as I understand it, and I am not at 
the operational level in any police department, if there is a 
hit on this, there is a call-back number. In some States it may 
be 1-800-TSC. In others it is just call your FBI agent. It does 
not resolve what that--the probative nature of that hit.
    Mr. Keller. And let me do one final question, because I 
have only got like 10 seconds here. Director McMahon, you used 
the example of someone who is filming at a nuclear power plant 
and is kind of suspicious, and the police officer does an NCIC 
check. Isn't one little flaw we have in the system that if you 
do the check on this guy, and he hasn't been arrested before, 
he hasn't been convicted before, but maybe he has done this at 
five other nuclear power plants, his name may not pop up; isn't 
that correct?
    Mr. McMahon. That is correct.
    Mr. Keller. What is the solution to that?
    Mr. McMahon. He wouldn't pop up unless he is already the 
subject of an investigation, and then the hit would have been a 
VGTIF hit we talked about, which would have said, contact the 
Terrorist Screening Center.
    Mr. Keller. If someone else had recorded it in there?
    Mr. McMahon. Yes. Or unless there was other particulars 
that would--where the patrol officer that stopped that person 
could create reasonable suspicion to move forward within their 
State laws.
    Mr. Keller. Okay. My time is expired. Yield back.
    Mr. Coble. The gentleman's time has expired.
    The Chair recognizes the gentleman from Washington Mr. 
Dicks for 5 minutes.
    Mr. Dicks. Thank you.
    Director Bucella, why has it taken so long to put together 
the integrated terrorist watchlist? We have had all these other 
lists. I mean, the Ranking Member has made a major point of 
this. It has been discussed. Why has it taken so long, and can 
you do it quickly? Tell us why it has taken so long.
    Ms. Bucella. There are a number of reasons. One is there 
are not--they are not just watchlists. They are case management 
systems. There are--they come from many different agencies and 
they contain much different information. And so it is not a 
matter of dumping somebody's data system with a bunch of names 
into just one database.
    Mr. Dicks. What is it? If it isn't that, then what is it? 
How do you do it?
    Ms. Bucella. We have the agencies going back through their 
case files taking a look to make sure that what they have in 
their case file, if it is a known or suspected terrorist, that 
it is identified as such. It is a matter of--from the different 
prerequisite watchlists they have. The biometrics, the IDENT 
and the IAFIS system, those are not watchlists, those are data 
information.
    This is a tremendous challenge just to figure out in our 
Federal Government all of the different systems that are in 
existence. That is what the big challenge is. It is not only 
technologically, it is also just substantively of making sure 
that we have good and accurate information.
    Mr. Dicks. How much of this job is done? None.
    Ms. Bucella. No. There is a lot that has been done, but we 
have a lot further to go.
    Mr. Dicks. But this date has been pushed to the right, 
pushed to the right, pushed to the right, pushed to the right 
and it is now December of 04 that this thing will be completed.
    Ms. Bucella. No, that is the fully automated database will 
be completed, and that would give every Government agency the 
access ability to--by computer reach into our database for 
those identifiers. That is at the end of the year. Right now we 
have a database with names and identifiers and we have over 
120,000 names in our database right now. But we are constantly 
populating. We are taking from the GAO list, we are currently, 
as we speak, uploading the IBIS case file, the NAILS case file, 
the NAILS list of names. This has been a long process. It is 
not just a matter of, as I mentioned to you before, of just 
dumping names into the system.
    Mr. Dicks. But we are continuing to add to this system and 
the system can be drawn upon right now.
    Ms. Bucella. We will always be adding. The system cannot be 
automatically drawn upon right now. We created a database which 
we have used at our screening center. The automated----
    Mr. Dicks. But you can pick up on it from the screening 
center. At the screening Center you can pick up a name. It is 
just that the other agencies can't come in at this point
    Ms. Bucella. Not yet. That is exactly it, sir.
    Mr. Dicks. All right. Now what is this problem with the 
Department of Defense? Are they cooperating or not cooperating?
    Ms. Bucella. It is not a problem with the Department of 
Defense. It is trying to figure out all of the information that 
the different agencies have. We have done outreach with the 
Office of Joint Chiefs of Staff. We have met with the Under 
Secretary's Office for Homeland Security. We are just trying to 
make sure that we have all of the information. It all should be 
pushed through the Threat Terrorist Integration Center for the 
international terrorists, and that is what we are endeavoring 
to find out, what other information is in fact out there. This 
is a complex process.
    Mr. Dicks. Have you gotten anything from the Department of 
Defense yet?
    Ms. Bucella. We have some names from the Department of 
Defense, yes, that are already--that have already been pushed 
through the FBI and through TTIC.
    Mr. Dicks. And finally, those police officers back there, 
they can't call directly from their car to the Terrorist 
Screening Center. They have to go through a dispatcher, the 
dispatcher then connects to the TSC, and then they have a 
discussion. The dispatcher says to the officer, here is what 
the TSC has told us.
    Is that basically it? I want to make sure my colleagues 
understand how this operates.
    Ms. Bucella. Right. The dispatcher is there, letting the 
officer, for officer safety, take care of the individuals that 
they are encountering for whatever reason they pulled them 
over. And then the dispatcher is taking the information from 
the officer and giving it to our center. And our center is 
trying to match up the information that the dispatcher has 
given.
    If the dispatcher--the requirements that the dispatcher 
would probably give back is, you know, either ask some more 
questions or move on or please give me some move descriptors, 
officer, as to what this individual looks like or what they are 
wearing or, you know, height, weight, and that type of 
information.
    Mr. Dicks. Staff has told us that in January the 
information-sharing would be done by March. And you are saying 
it is not done yet.
    Ms. Bucella. No, what I told the staff----
    Mr. Dicks. That is the end of the year now. That has moved 
to the end of the year.
    Ms. Bucella. No. What I told the staff is that we would 
have a database by March, not a totally complete database. We 
would have a database that we would use.
    Mr. Dicks. But you don't have one now.
    Ms. Bucella. We have a database now. It was up on March 
12th. March 12th it was up. I think when I briefed your staff, 
I said it would be up by the end of March and we had it 
operational by March 12th.
    Mr. Dicks. Is a memorandum of understanding necessary? MOU 
necessary?
    Ms. Bucella. I believe it gives some guidance to all the 
different agencies so everybody is on the same footing.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Coble. Thank you Mr. Dicks. The Chair recognizes the 
gentleman from Arizona, Mr. Shadegg for 5 minutes.
    Mr. Shadegg. Thank you Mr. Chairman.
    Director Bucella, let me begin with you because I am trying 
to get this clear in my mind. As I understand it, in response 
to Mr. Dicks' questions you just confirmed that you have an--I 
guess it is called a terrorist-creating database, not yet 
complete but you have a database, right?
    Ms. Bucella. We have a database, and though not yet 
complete, it needs to be improved upon so it is all automated.
    Mr. Shadegg. It seems to me that almost all law enforcement 
databases are not yet complete, so----
    Ms. Bucella. We have been operational, sir, for 4 months. 
So we are trying to do operations and get this database going.
    Mr. Shadegg. What I would like to do is have you give me 
greater clarity of the difference between your database and the 
database, if there is one, that is maintained by TTIC.
    Ms. Bucella. TTIC is currently working on their database, 
but their database has all of the underlying reasons why that 
person is a terrorist and it has highly classified information 
on it. So that is the real distinction. And also TTIC only has 
international terrorist information in it. It does not have the 
domestic terrorism information. That other feed comes from the 
FBI.
    Mr. Shadegg. Well, the FBI feeds into the TTIC database as 
well.
    Ms. Bucella. For your international terrorists, sir.
    Mr. Shadegg. Okay. So you are saying the TTIC database will 
be international terrorists and it would include classified 
information. And your database would include international 
terrorists and domestic terrorists.
    Ms. Bucella. The names and identifiers only.
    Mr. Shadegg. Names and identifiers only, not the basis for 
which they were placed on the list?
    Ms. Bucella. Yes, sir.
    Mr. Shadegg. And if I understood the description you gave 
to Mr. Dicks, the reason this is taking a substantial amount of 
time is to verify that someone actually belongs on the list.
    Ms. Bucella. Yes, sir.
    Mr. Shadegg. Okay. At an earlier hearing, we were told that 
it would be impossible for an officer on the street to get data 
directly from this Terrorist Screening Center, essentially to 
get data directly out of your database. And in a sense I think 
the description you just gave us confirms that. That is to say, 
an officer in a patrol car who calls in with a suspect he is 
currently detaining doesn't talk directly to you or--and 
doesn't electronically access your database.
    Ms. Bucella. Yes, sir.
    Mr. Shadegg. He goes through a dispatcher.
    Ms. Bucella. Uh-huh.
    Mr. Shadegg. And the dispatcher passes the information on 
to you. You then pass the information back to them. If they 
provide you with sufficient identifiers, you give them back a 
confirmation or a denial: We don't have anybody by that name, 
or we do have somebody by that name.
    Is that accurate? I see you shaking your head no.
    Ms. Bucella. No, sir it isn't. First--let me tell you why 
we use a dispatcher. To authenticate and verify that that 
person is, in fact, a lawful police officer, number one. Number 
two, we don't give the confirmation or rejection. If it appears 
that the person is in fact the same individual that would be in 
our database, we forward the call to the Counterterrorism Watch 
at the FBI. They are the operational arm, along with the Joint 
Terrorism Task Force. We drop off the line while the 
Counterterrorism Task Force, the CT Watch, is talking to the 
individual so that they can then provide guidance to the law 
enforcement officer on the street as to what they should do 
with that individual they are encountering.
    Mr. Shadegg. Okay. That leads me to two follow-up 
questions. One of the questions I had was that at the earlier 
hearing, we were given the impression that when a line officer 
on the street makes this call and thinks he has somebody who 
may be a suspect, a terrorist suspect, that one of the reasons 
that they cannot access you directly is that it requires 
essentially the approval of some supervisor, that this ought to 
be checked for--that this stop, person they have stopped, a 
suspect, merits screening as a terrorist. Are you aware of any 
such requirement?
    Ms. Bucella. No. And I am also not aware of the previous 
hearing as to who was even talking about this.
    Mr. Shadegg. It is a hearing of the Homeland Security 
Committee, probably 2 weeks ago, and maybe a month ago.
    Ms. Bucella. Sorry, sir.
    Mr. Shadegg. All right. The second question I have is I 
understand that because are you not operational, you just 
maintain a database, this procedure is in place where you 
essentially bring in--who did you say?
    Ms. Bucella. The Counterterrorism Watch at the FBI.
    Mr. Shadegg. Okay. Do we have experience, although you have 
been up and running fairly short, with how much time that takes 
because my--you know, my police officers are going to be 
concerned about that issue.
    Ms. Bucella. Well I can give you--it depends on where the 
encounter is and when we get the phone call.
    Mr. Shadegg. Well, for me, the encounter is way out in 
rural Arizona in the Navajo Indian reservation.
    Ms. Bucella. If there is a local joint--usually the 
information can be provided, CT Watch turnaround time is very 
very quickly. But, for example, I can get the answer for you as 
to what our experience has been in Arizona. But for right now I 
can't; however, I heard from New York that our time has been 
very very good. I mean, it varies.
    Mr. Shadegg. Well give me, other than very very good, give 
me some specific--some time frames. Is this a 2-minute process, 
a 4-minute process, a 16-minute process?
    Mr. McMahon. Congressman if I can jump in on that. What 
usually happens is you get the VGTOF hit, person of interest. 
The call goes in to our dispatch center. Dispatch center calls 
the TSC, going back and forth to the car. They verify that that 
is the individual. The CT Watch is brought in.
    Mr. Shadegg. Well, the first question is, how long does it 
take to verify the individual?
    Mr. Coble. Folks, we are going have to wrap up quickly.
    Mr. McMahon. We have been in minutes, but then with the CT 
Watch which gives specific information, get the person's name, 
associate's name, where they are going, whatever, and then let 
them go, it is running, you know, actually--usually I would say 
on average of 12-15 minutes, maybe, on something like that. 
Because when we talked, we said there should be--we were in 
about a 20-minute maximum guideline that we would need, and the 
FBI has been meeting that.
    Mr. Shadegg. My time obviously expired. I appreciate the 
Chairman's indulgence.
    I would appreciate a written response to both questions: 
How long it takes to confirm, on average, that this is a person 
worth looking into; and then how long it takes to dispose of 
the matter. I think that is the concern of the average 
American.
    Mr. Coble. The gentleman's time has expired.
    Prior to recognizing the gentlelady from Texas, I want to 
welcome the three law enforcement officers who Director Bucella 
introduced to us earlier. I failed to extend a welcome to you 
gentlemen. Good to have you all with us.
    And, Mr. Berman, in response to one of the questioners, I 
don't recall who was examining you, but you indicated some 
concern about the fact that the Department of Homeland Security 
did, in fact, have a privacy officer, but the FBI did not. But 
the Department of Justice, as you know, does have an Office of 
Information and Privacy, and since the FBI is housed therein, 
that ought to assuage--well, I shouldn't say that. I hope that 
assuages your discomfort.
    I am now pleased to recognize the gentlelady from Texas for 
5 minutes, Ms. Sheila Jackson.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And 
might I add my appreciation for the gentlemen as well, and 
welcome to our Committee. I hope that you sense a great 
curiosity and certainly a great recognition of the moment that 
we have in terms of dealing with these questions of homeland 
security.
    Let me also add my appreciation to both Mr. Coble and Mr. 
Scott, Mr. Gibbons, and Ms. McCarthy for this joint hearing. I 
think it is really vital. I listened intently to the hearings 
yesterday of the 9/11 commission for the time that I was in the 
hearing room to listen to a part of two witnesses, and that is 
Mr. Tenet of the CIA and Mr. Clarke. And I believe that even 
though they might have been conflicted in where they were going 
with their testimony, they were very clear that we have not yet 
punched all the buttons on the war against terrorists.
    In addition, I think George Tenet emphasized that the local 
law enforcement are key and must be integrated into the system 
extensively. And I agree with that.
    One of the comments--and I don't want to attribute it to 
Mr. Clarke, for my recollection may not be completely accurate 
in that there were many witnesses--but I am not afraid to say 
that the thrust of some of the remarks were that even if the 
prize plum of Osama bin Laden is caught, that does not in any 
way end the war on terrorism. The terrorist activities are 
sufficiently diffuse and spread out, if you will, to indicate 
to us that we might even just be beginning. And so this whole 
question of the integration of the intelligence system and 
having it work is a key part of our survival.
    One of the other points, I serve as the Ranking Member on 
the Immigration Subcommittee here on the Judiciary, and we 
balance and complement the Homeland Security Committee's 
issues. But I think it is well noted that one of the best 
defenses of terrorism is to ensure if you talk about homeland 
Security, that the terrorist never gets to your land.
    [4:20 p.m.]
    Ms. Jackson Lee. That is where the watchlists and other 
integrated activities occur.
    So I have a series of questions, and I appreciate very 
much, Ms. Bucella, but I would also include and welcome others 
who may wish to answer. You probably answered this three and 
four and ten times, but answer it again, if I am correct as to 
the Terrorist Screening Center that was supposed to be 
operational by December 1, 2003, if I am correct, and find out 
what is happening with that and its completeness and its 
operations.
    The other point that I would like to trace is the 
utilization of this watchlist. I know there have been some 
questions dealing with civil liberties and the privacy 
questions. I want to ask questions about the visa operations. 
When foreign guests attempt to secure visas in their foreign 
posts in the United States embassies, what is the effectiveness 
of the watchlist by that process? They attempt to secure a 
visa. We are now sending names to a watchlist. What is the 
turnaround or the integration of the data such that you 
immediately are able to look at that name and coordinate it?
    As you well know, there are a lot of Mohammeds and you can 
be sure that I am getting a lot of complaints on the system 
because I am not the Mohammed that people were looking for. I 
want us to be secure, but I also want us to recognize there are 
other elements of our life and business as well.
    The whole concept of Field Intelligence Groups. Houston 
happens to be one of a very few regions that has that. I think 
it is a vital in terms of coordinating intelligence activities 
with the local law enforcement. What is the effort of the FBI 
to put these kinds of entities into regions, as many regions as 
possible?
    These questions are to you, Ms. Bucella, and to others who 
may be able to comment on them.
    Ms. Bucella. I first would like to comment on your question 
regarding the visas. The visa system is still being 
administered by the State Department. The State Department was, 
according to the MOU--part of their function came over to not 
only the Terrorist Threat Integration Center, but part of it 
came over to the TSC. The State Department employees are still 
reviewing those visa applications, but many times when somebody 
applies for a visa, it is not real-time. It is usually a week 
or 2 weeks. I am not sure. The expertise on the entire visa 
program, that would be better addressed to the State 
Department.
    Ms. Jackson Lee. I thought you were looking at a list that 
you comprised when they are talking about a watchlist, and my 
understanding is that the data collection was a problem in 
terms of interpreting and getting it up to date. I realize 
the--if you will, the categorizing of responsibilities. I know 
that they keep that, but they are supposed to be looking at a 
watchlist.
    Ms. Bucella. The names that they are looking at are at our 
center. But the derogatory information, the underlying data, 
that resides at the TTIC.
    Ms. Jackson Lee. Here we have a mixture of confusion.
    Ms. Bucella. No. Really, the function of the Terrorist 
Screening Center is only to have the names and identifiers of 
those known or suspected terrorists in their data base. We are 
an unclassified database. The responsibility of who keeps the 
derogatory information on international terrorists resides with 
TTIC. So we have separate functions.
    Ms. Jackson Lee. And that is who the----
    Mr. Gibbons. The gentlelady's time has expired.
    Ms. Jackson Lee. Could she just quickly answer those last 
two dealing with the operations and the operational aspect?
    Ms. Bucella. Again, the Terrorist Screening Center is 
merely facilitating in the identities match. As to the 
operations of field intelligence groups, I am not the person to 
be asking here.
    Mr. McMahon. Only thing I can say is--and I don't think 
this would have happened prior to 9/11, the field intelligence 
group in Albany is putting that unit into the State 
Intelligence Center, which is like 2 miles away, instead of 
having two stovepipe systems. So I see a great integration.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Gibbons. [presiding.] Mr. Goodlatte of Virginia.
    Mr. Goodlatte. Mr. Chairman, thank you very much for 
holding this very important hearing.
    I want to particularly welcome Jerry Berman, who was in 
another life wearing the hat of the Chairman of the Internet 
Caucus Advisory Council which is very interested in issues like 
this as well because of the technology that is deployed and the 
effects it has not only on the safety of our citizenry but also 
their rights to privacy.
    I wonder, Mr. Berman, if you might outline for me the 
problems that exist with a multitude of different watchlists in 
terms of protecting the privacy of citizens. Are we better off 
with one watchlist or we better off with the alphabet soup of 
watchlists that we have? Related to that, when we start mixing 
watchlists so that someone who is on one watchlist for some 
reason gets on to another database watchlist that is built 
around another reason, is there a risk that people could be 
confused for being suspected of something they are not 
suspected of?
    Mr. Berman. I think the answer is yes, yes. I think that 
the--it is a daunting and maybe impossible task to create one 
single, consolidated watchlist. I think that the different 
agencies have different bureaucracies, they have their own 
culture, they don't want to share information, and they have 
different functions. So mixing all those watchlists into one 
may be impossible, and it may not be necessary. It may be 
possible to have a set of watchlists that can be responded to 
on a computerized basis that have different levels of access 
both to protect privacy and the security of the information, 
but which trigger requests down line.
    Mr. Goodlatte. It can be done in real-time. Look at all 
those lists separately but look at them almost simultaneously.
    Mr. Berman. There are the 200 most dangerous people who 
ought to be identified, and that ought to be triggered and sent 
back to an FBI agent and hit on that flag. They shouldn't have 
to call back 24 hours later and go through a bureaucratic 
system to find that out if it is the most dangerous people. If 
it is someone who is not really suspected of terrorism, that 
flag may say call back later and then call the FBI.
    Maybe that is where the Terrorist Screening Center is 
going. But, right now, I don't think they have the technology. 
I don't think they have the money to use the kind of auditing 
technology that the private sector could bring to this. I think 
they may want to. And I don't think they have controls on the 
civil liberties side, even if we had the right computers, on 
the problem of what is going in the system. The Director says, 
you know, we are trying to purge and make sure it is the right 
information. But they have no control over what the FBI wants 
to put on their watchlists. It is up to them.
    Mr. Goodlatte. Let me ask any of the other panelists if 
they want to respond to that question.
    Ms. Bucella. One of the things that concerns I think 
everyone is to have one master database with all the underlying 
information being in one place. If that were ever compromised, 
that would really hurt America.
    However, let me tell you one of the things that we have 
found at our center. We filled a lot of holes because of the 
perspective of where we are sitting. We have been able to marry 
up or facilitate the communication between many different 
Federal agencies having pieces of investigations on the same 
program.
    Mr. Goodlatte. We all agree with that and we want to have 
the access to that, but what I would like to know from you is, 
what do you think about one of those agencies with access to a 
watchlist or data base of another agency taking information off 
that database and putting it on to their own database? Are 
there protocols or standards for doing that?
    Ms. Bucella. Right now, nobody can just pull from our 
database. We want to make sure that all the information we have 
on the individual is up to date.
    Mr. Goodlatte. Let me interrupt you there. When we set up 
the Department of Homeland Security, the Judiciary Committee 
went through quite an extensive debate about what function the 
State Department should serve in issuing visas. There are some 
who wanted to have more of a law enforcement type perspective 
on the person who is actually issuing these visas in these 
countries around the world where applicants come in and apply 
for a visa. Look at them from a different perspective than a 
State Department employee who might have a political 
consideration for why certain persons should be allowed to come 
to the United States for diplomatic reasons.
    Can you say to me whether you are getting adequate 
cooperation from the State Department at those consular offices 
around the world providing you with sufficient information so 
that as you screen people on these watchlists, you are getting 
the cooperation? Are you finding the right people to give you 
data about or could that be done better?
    Ms. Bucella. Right now, the partnership that we have with 
the State Department has been absolutely essential not only in 
educating us as to the visa program but, for example, if based 
on information that an individual gets a visa and they 
subsequently find out that there is additional information 
coming from one of the Government agencies, they are right 
there with us. We are able to immediately contact DHS, CBP so 
that if the individual does come into the United States or 
tries to come into the United States, they can be blocked 
immediately at CBP.
    Even if there was a visa issued based on faulty information 
or incomplete information, if that person gets on a plane and 
while they are in the air subsequent information is found out 
by any Government agency, we immediately contact the National 
Terrorist Screening Center--the National Targeting Center, 
excuse me--and they will respond immediately at any of our 
ports of entry, whether the person is trying to come in over 
the border in Canada or trying to fly to the United States. 
That has been another hole that we have been able to fill.
    Mr. Gibbons. In view of the fact we are going to have 
another vote coming up shortly and we want to get to a second 
round, I am going to limit the second round of questioning to 
one very quick question for each of the Members; and I will 
start off with Mr. Bartoldus. Let me ask you, in the 
advancement of technology that is going to take place in this 
data watchlist that we are talking about, where you are going 
from the automatic targeting system to the new ACE system, the 
automatic commercial environment that you have, what does the 
link between ACE and the Terrorist Screening Center look like? 
Is that part of the consideration that you are talking about? 
Also, how is the database for agents in the field being 
considered when you look at this new system? How does it change 
what you do?
    Mr. Bartoldus. The automated targeting system is the 
current system that is used by CBP officers to identify high-
risk passengers or cargo in advance of arrival. It is fully 
compatible with our mission directives under the ACE program.
    I actually have assigned two of my staff at the National 
Targeting Center as our ACE liaisons, and we developed the new 
automated commercial environment as a bridge between our 
current system and the future system. So we are fully 
integrated and sat down with Donna's deputy in several meetings 
so, as we develop the new system, we are developing it with an 
eye toward TSC and immediate sharing of data.
    Mr. Gibbons. It will improve your coordination and 
information sharing when you go to this ACE system?
    Mr. Bartoldus. Yes.
    Mr. Gibbons. Mr. Scott.
    Mr. Scott. Mr. Berman, if your name gets on the list by 
mistake, what is the process for getting your name off?
    Mr. Berman. I may have to bring litigation right now or 
maybe I could call the Department but I don't know where I 
would go. I don't know how my name got on the list right now. I 
don't know which agency put it on. I am assuming I am stopped 
or can't fly. I could ask the Terrorist Screening Center if 
they have got my name on the list, but they would refer me back 
to the agency which provided the watchlist and they may tell 
me. But I don't know what the standard was. I may have to file 
litigation. I mean, I would like to have a response to that. I 
don't know what the process is.
    Mr. Gibbons. Mr. Cox.
    Mr. Cox. Well, I think that is an excellent question and we 
ought to ask the rest of the panel, beginning with the Director 
if we might, what the answer might be to that question.
    Ms. Bucella. It does depend. If you were stopped at an 
airport and you were on a no-fly list, the TSA has a process in 
place in an office of the ombudsperson. If you were stopped 
going through a secondary search--Mr. Bartoldus could speak to 
that--but you could be, in fact, brought into secondary for a 
whole host of reasons that have nothing to do with terrorism.
    Mr. Cox. Let us say I am not being stopped or anything, it 
just came to my attention while I was at home one day, somebody 
told me I am on this list and so I want to do something about 
it because I don't think I should be on it; what do I do?
    Mr. Bartoldus. Speaking for CBP, you can always write a 
letter to our headquarters in Washington, D.C. Or your local 
office. They will fully research it, respond to you saying 
whether or not we have a record, you know, depending--as long 
it is not a classified record. Or if there is a record of 
another agency, we will refer you to that other agency and they 
almost all have ombudsmen.
    Mr. Cox. Do I have to know which agency is a priority?
    Mr. Bartoldus. If it was not our record and you asked us, 
we would confer with that other agency and refer you to that 
agency and send a letter back to you and the other agency.
    One other quick point. If your name matches someone else 
who is on the list, that is information we collect and we use 
that in our screening, so that we can identify next time you 
come across the border that you are not the person we are 
interested in.
    Mr. Cox. Let us say I pursued the Berman route and I file a 
lawsuit because my letters didn't get answered or I got a form 
letter or something. Not that you would ever do that, but let 
us go down this path. What right would I have in discovery in 
this litigation to obtain the records that are the basis for my 
being included in the list? And let us assume that they are 
classified. Somebody is going to tell me I think, well, we 
can't tell you why you are on the list, right?
    Mr. Bartoldus. CBP operates under the standard FOIA laws. 
If something is classified beyond the FOIA laws, then it is not 
discoverable.
    Mr. Cox. Since we are dealing with terrorism here and it 
has a big international component and it involves the 
Intelligence Community, I would assume in a lot of these cases 
names on the list are there because of classified information, 
right?
    Ms. Bucella. That would be fair to say.
    Mr. Cox. It is reasonable to assume that if I want to get 
my name off the list and there are well-meaning people in the 
Government who are trying to help me, they are still going to 
have to write me back, even if it is not a form letter, saying, 
well, you are on the list and we can't tell you why.
    Ms. Bucella. I would have to get an answer for you because 
I am not quite sure that they could even confirm that you were 
on the list.
    Mr. Berman. Mr. Chairman, there are ways of dealing with 
classified information in litigation, but it is going to be a 
hard road to litigate, unless I was denied the right to travel 
or some other benefit. But I think the larger point is that TSC 
is not in a position to do this. It is going to refer you back 
to any number of 14 different watchlists, which are the 
watchlists that are supposed to be consolidated in any event. 
The issue was to consolidate the watchlist and at least to make 
them systematic and accessible in certain ways to resolve 
terrorist issues, but it was also to bring us under some 
standard and guidance so that we would have some civil 
liberties protection. That is what DHS was set up to do. And it 
seems to me that the system is not functioning the way Congress 
intended it to function.
    Mr. Cox. I think what this real-life thought exercise has 
led us to is that, first, it is very important when we put 
names on the list that we take every reasonable precaution to 
make sure it is done right to begin with; and second, as Mr. 
Berman points out, that we not have it be so variegated that it 
depends on where it came from and who is making the decisions 
and so on.
    HSPD 6 is very different from the Homeland Security Act. 
The Homeland Security Act has shot throughout the notion that 
there is a one-stop shop, whether it is fusion of intelligence 
and so on, or this question. It also has, as I pointed out 
earlier, an officer for civil rights and civil liberties and a 
privacy officer, and that officer for civil rights and civil 
liberties is responsible for the whole Department, not just an 
individual directorate, so that there is constancy throughout. 
Lastly, we don't----
    Mr. Gibbons. Mr. Cox, we have been trying to limit the 
number of questions on this second round. I don't want to cut 
you off unnecessarily, but in order to be fair to everyone.
    Mr. Cox. If I may, I will just finish the sentence and say 
if we have the Department of Homeland Security playing a more 
significant role here, we will have somebody who can, no matter 
how your name got on the watchlist, from what source, deal with 
these kinds of inquiries, to not only provide the standards up 
front, but also help people who are trying to get themselves 
off when they think they are improperly put on and provide 
routine standard answers that won't be different, depending on 
where you entered the system and which agency it is.
    I thank the Chairman.
    Mr. Gibbons. Thank you very much, Mr. Cox, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Bucella, Mr. Bartoldus, have you had a chance to see 
the presentation of the Markle Foundation that Mr. Berman is an 
advisory board member on, the presentation regarding the 
integration of data, the software that would allow different 
levels of classification to be accessible to different people 
who may be qualified and eligible to receive the different 
levels of classification?
    Ms. Bucella. No, sir, I have not.
    Mr. Turner. I would urge you to do it. And I am very 
disturbed by what I am hearing today. I get the sense that 
there is nobody designing a system that is capable of 
integrating the various databases, the various information kept 
by various agencies, integrating them in a way where they are 
accessible in real-time. I get the feeling you are telling us 
that by the end of the year, you will have a single database 
constructed by collecting the data from the other 12 databases 
that exist. But I don't sense that that is going to be 
accomplished in a way that has a vision for an overall 
integration of databases in developing a system that provides 
accessibility in real-time to various levels of information 
that should be made available.
    Who is designing, who is in charge of developing the 
information technology architecture for the Terrorist Screening 
Center?
    Ms. Bucella. Right now in the next week, we are--we have 
been developing some requirements and reaching out to all of 
our Federal partners to make sure that we can have some type of 
connectivity, because by the end of the year what we want to do 
is allow our system to be queried electronically by other 
systems.
    Mr. Turner. Are you going to do that internally with 
Federal employees? Are you reaching out with a request for 
proposals to the private sector to accomplish that task? How do 
you intend to do it?
    Ms. Bucella. We have been meeting with contractors.
    Mr. Turner. Do you have any timetable when you might have a 
request for proposal for that kind of system?
    Ms. Bucella. No, sir.
    Mr. Turner. I would urge you to move forward with that and 
also urge you take a look at what the Markle Foundation has 
produced in the process of developing that. Again, I am 
disturbed, because as you know--and I don't place it all at 
your feet. I mean, obviously you have been in this job since 
December. The FBI has just been asked about that time to take 
over the task. But we are 2\1/2\ years after 9/11, and none of 
these programs that we are spending billions on, U.S. VISIT, 
Caps II, none of them are going to work unless there is a 
unified integrated database comprising all the agencies that 
contain this data. We will never be able to stop issuing visas 
to the wrong people unless we have it done right.
    And I would urge the Department of Homeland Security and 
the FBI to try to have a larger vision on what the architecture 
should look like to get this job done in the right way and 
effective way so that it is comprehensive, it is available to 
the people that need to see it at the various levels, and it is 
available in real-time.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you very much, Mr. Turner. Mr. 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I am pleased to 
yield my one basic question to the Chairman of the Committee.
    Mr. Cox. I actually don't want to belabor the point, just 
say at the time we announced the creation of the TSC, I 
applauded the effort of the consolidation for the reasons that 
the Ranking Member, Mr. Turner, just pointed out. But I said at 
the same time, that the screening center should be part of the 
Homeland Security Department because it is the most appropriate 
location for the new center, for some of the reasons that I 
think we have been talking about here.
    The Secretary of Homeland Security has statutory 
obligations to provide authoritative threat assessments that 
have major implications for the security of Americans against 
terrorism. And to do this, he or she in the future has to have 
the tools and the resources that centers such as the TSC are 
going to provide. In addition, I think it is becoming clear 
that to obtain all of the benefits that we want from 
consolidation, we need a consolidator.
    So I guess my final question to the Director would be, Ms. 
Bucella--and I know this is something of a friendly question 
inasmuch as you are technically an employee of the Department 
of Homeland Security, is there anything--let me ask it the 
easiest way. Is there any harm that would come from making the 
Terrorist Screening Center part of the Department of Homeland 
Security?
    Ms. Bucella. I can only answer as to some of the challenges 
that we have found in setting up the Terrorist Screening 
Center. Because the Department of Homeland Security was not in 
the past involved in the intelligence world, we have had a 
very----
    Mr. Cox. It didn't exist in any world.
    Ms. Bucella. It is a brand new agency with 22 different 
organizations that have been brought together, different 
cultures, just trying to get the intercommunication done, but 
more specifically at our center, just trying to get the people 
with the right clearances so that they can come through the 
door and answer the 20,000 phone calls--2,000 phone calls that 
we have received since we have been up.
    It has been a challenge to make sure that we can get the 
proper background clearances. The FBI agents have had a very 
large group of individuals that already have those clearances 
because they have been involved in intelligence and the 
terrorism aspect of it. But as to the future, I am not the 
expert here.
    Mr. Cox. So we have got the exigencies of getting such a 
thing set up, but there is nothing in nature that would be 
offended if all of this were ultimately reported to the 
Secretary of Homeland Security.
    Ms. Bucella. The Terrorist Screening Center has an 
incredible mission that we may need to move forward on. I am 
not looking as to the future of where it is going to be. I just 
want it to work right. And the men and women that work with me 
are from all different agencies, and it is something that I 
would invite you to come see us, because it is incredible to 
see the partnership that is occurring there on a daily basis. 
We may have Coast Guard there with their uniforms on, but they 
are working side by side with the FBI and the State Department 
and it really is a cooperative effort.
    Mr. Cox. I want to applaud you for that, and we are very, 
very pleased with the effort that is being made and the 
progress that is being made.
    Mr. Berman, I can tell you want to be heard on this.
    Mr. Berman. The argument for DHS is Representative Turner's 
point, which is DHS could drive the vision that would break out 
of the traditional intelligence baronies that existed prior to 
9/11. I thought that was part of the vision. And the Markle 
Foundation, of which I am a member, recommended that DHS take 
the lead in driving that kind of vision, including using some 
of the information technology that I discussed with 
Representative Goodlatte.
    That is not going to happen through the traditional 
baronies. And what I am afraid has happened through the 
creation of TTIC, TSC, and all the rest, is a new alphabet soup 
which returns authority essentially to the traditional agencies 
so that they maintain maybe a changed world, but a lot of the 
status quo and power that they had originally, and that DHS is 
not in that visionary role or driving leadership in 
reorganizing their intelligence functions.
    Mr. Cox. Well, that is my abiding concern as well, and I 
think you aptly stated it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gibbons. Thank you very much.
    Mr. Scott, in an order of fairness, I will grant you time 
for an additional question or two.
    Mr. Scott. I am a little concerned about what happens if 
your name gets on the list by mistake, where you factually are 
the wrong person. Certainly you would have no right to take 
your name off if the person with your same name is properly on 
the list.
    I guess my question is, if you have the same name as 
someone on the list, how do you ever make an airplane flight 
without having missed the first one--I mean, how long does it 
take after you have gotten a hit, show up at the airport in 
plenty of time, you got a hit, by the time you have gotten 
cleared you have missed your flight; is that right?
    Ms. Bucella. Not necessarily, and especially not since the 
TSC has been in existence. We have had occasion where not only 
on a plane but at the border, we have encountered a person 
actually with the same name and date of birth, but different 
identifiers. We have now gone back to the different case files 
systems, the case management systems, for example, the CBP, and 
there is a notation in the file, ``Please ask the hair color 
immediately,'' or ``Ask the weight immediately.''
    That is going to be a long process, but that has actually 
been in it and we have been able to make sure that people have 
not been unduly inconvenienced and they can go through the 
system a lot faster than they were able to previously. And Mr. 
Bartoldus can speak a little more about that.
    Mr. Bartoldus. When I talked to my staff before I came 
here, I said, Is there ever a time you would not call TSC? They 
go, ``Yeah, the frequent crossers who we have all identified 
with TSC are the people who are not looking for it, but their 
passport was stolen once or identity was stolen once, and the 
stolen identity is what we are looking for.''
    We have been able to work with the TSC and our own staff to 
put systems in place to make sure those people are facilitated 
when we encounter them again.
    Ms. Bucella. Congressman Scott, what we are doing every day 
is refining the system.
    Mr. Scott. How long does it take from the time you buy your 
ticket to the time you get a hit to the time you have been 
cleared? How long does that take? When you buy a ticket, give 
them your name, your name automatically goes through the 
system, right?
    Mr. Bartoldus. No. For CBP purposes, it goes through the 
system when you are on the airplane or approaching the 
airplane. What we do in those circumstances is, you have been 
identified as a frequent traveler who has a name match or you 
have been encountered before and you are not the person we are 
looking for, we immediately identify that you usually make the 
same flight or the same exit. The record is hard-coded and 
improved that day by that event and captured by that event.
    The other benefit of TSC is the information that is 
collected by the law enforcement officer, the border crossing 
agent, or whatever is incorporated into the field and the 
record to constantly update it.
    Mr. Scott. Obviously, that is the second time. The first 
time was different.
    Mr. Berman, did you want to make a comment?
    Mr. Berman. There are several people who have contacted the 
ACLU, contacted our organization, there have been stories in 
the Wall Street Journal. And I know one person, I won't mention 
his name, who just doesn't fly anymore because they cannot get 
out of the system because they have the same name, and it 
requires they get detained, and then there is a reconciliation 
back through the system to see whether that person is the 
person; and they don't have enough query fields on the computer 
itself to be able to match a number of information fields. And 
they can correct me if I am wrong, it requires calling the 
agency and walking back the information, how tall are you, 
because for security reasons they won't provide that 
information up front.
    So it is a query system. So it is not unduly 
inconvenienced, but that can be inconvenient, not being able to 
fly. I mean, I am prepared to hear that that is not the case.
    Mr. Gibbons. Thank you very much, Mr. Scott.
    We have reached the end of the day for all of you and all 
of us on this Committee, and we want to thank each of you for 
your time here today. The buzzer is very timely. We ignore it 
as everyone else does. But I want to thank each of you again 
for taking part in this Committee hearing. Your testimony has 
been very valuable in helping us better understand this issue.
    We may have some written questions from the Committee to 
you, and the record will remain open for 1 week. We would 
expect and request that you respond to those questions in a 
timely fashion.
    This concludes the oversight hearing on the progress in 
consolidating terrorist watchlists, the Terrorist Screening 
Center. The record, as I indicated earlier, will remain open 
for 1 week. Again, thank you for your cooperation and this 
Subcommittee stands adjourned.
    [Whereupon, at 5 p.m., the joint hearing was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress From the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of the Honorable Christopher Cox, a Representative 
    in Congress From the State of California, and Chairman, Select 
                     Committee on Homeland Security

    Thank you, Chairman Gibbons and Chairman Coble, for holding this 
important hearing--the second hearing the Homeland Security Committee 
has held jointly with the Judiciary Committee. I join you in welcoming 
our witnesses.
    On December 1, 2003, at the President's direction, the Terrorist 
Screening Center stood-up with the task of providing unified, accurate 
terrorist screening information to screeners around the country, 24 
hours a day, seven days a week, through a single node. The TSC will 
serve State and local officials, as well as private sector entities 
that manage critical infrastructure. It will even serve foreign 
governments that have entered into immigration agreements with the 
United States, if they are partners in the global war on terrorism. But 
the Terrorist Screening Center's support is particularly important to 
our nation's first responders, our border protection officials, and the 
consular officers who adjudicate hundreds of visa applications every 
day.
    Our overriding objective is, after all, to prevent terrorist 
attacks. There, the Terrorist Screening Center--TSC--represents a 
quantum leap--in this nation's ability to keep terrorists out and to 
pursue potential terrorists who have managed to get in--for example, by 
giving law enforcement officers a reliable way to determine whether a 
person stopped for a routine traffic violation is, based on all the 
information available to the U.S. Government, involved in some way in 
terrorist activity. It also represents another important milestone in 
tearing down barriers to information sharing between the Intelligence 
Community and law enforcement officials.
    Integrating the data contained on the Government's legacy watch 
lists is a positive step--it was needed. Historically, nine Federal 
agencies maintained 12 disparate watch lists, the contents of which 
were not accessible across agency lines and were not comprehensively 
analyzed. That means we had no efficient way of accessing the 
information we had--and as a practical matter, what you can't access, 
you really don't know. That's one of the hard lessons of the 9/11 
attacks.
    But integrating the information on all those lists is a complex 
task, even in the era of interoperable computer systems and instantly 
searchable databases--and it must be done right. And to be the right 
solution, TSC must not come at the price of the civil rights or First 
Amendment freedoms of American citizens. Because we are fighting to 
preserve our way of life--that's a fundamental part of protecting our 
nation. And I believe it has been worth the time it has taken to get 
TSC done right.
    The information collected and maintained on the Government's 
various watch lists was collected under different authorities for 
widely divergent purposes and maintained in different formats. There 
was no agreed upon set of discriminators to determine whether an 
individual should be watch-listed. And the 12 legacy lists, taken 
together, had hundreds of thousands of names. They could not just be 
dumped into some massive, Government database of potential bad-guys. 
Each name had to be analyzed to make sure it belonged on TSC's 
integrated list.
    So at this hearing, we hope to get an update on the TSC's progress 
and relationship to the Department of Homeland Security. And, equally 
important, we hope to be reassured that TSC, and the databases that 
feed it, will not impinge upon the civil rights and civil liberties to 
which we, as Americans, are entitled.
    There are also serious questions we must ask: Is the Terrorist 
Screening Center the solution for the present--or forever? Is it 
structured in the most effective way? Does it work--is it fast, 
reliable? Is it being used by those who need it most? Can a user get 
additional information on a TSC name ``hit'' quickly and reliably? Is 
TSC's management and supervision appropriate? How can it be improved? 
Are civil liberties and privacy interests scrupulously safeguarded? 
Could a name get on TSC's list erroneously? If so, how would that be 
discovered and how corrected, quickly and certainly?
    I look forward to hearing from each of the witnesses on these 
important issues. Thank you, Mr. Chairman, and I yield back the balance 
of my time.
       Questions and Responses for the Record from Donna Bucella

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Questions and Responses for the Record from Jim McMahon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Questions and Responses for the Record from Charles Bartoldus

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
